<html>
<title> - A REVIEW OF AVIATION SAFETY IN THE UNITED STATES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      A REVIEW OF AVIATION SAFETY
                          IN THE UNITED STATES

=======================================================================

                                (112-83)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-986 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
    Chair                            MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida            Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Hon. Margaret Gilligan, Associate Administrator for Aviation 
  Safety, Federal Aviation Administration........................    12
Hon. David Grizzle, Chief Operating Officer for Air Traffic, 
  Federal Aviation Administration................................    12
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and 
  Special Programs, U.S. Department of Transportation............    12
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................    12

                               Panel Two

Thomas L. Hendricks, Senior Vice President for Safety, Security 
  and Operations, Airlines for America...........................    29
Scott Foose, Senior Vice President, Operations and Safety, 
  Regional Airline Association...................................    29
Captain Sean Cassidy, First Vice President, Air Line Pilots 
  Association, International.....................................    29
Gary M. Fortner, Vice President of Quality Control and 
  Engineering, Fortner Engineering and Manufacturing, Inc., on 
  behalf of the Aeronautical Repair Station Association..........    29

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Eddie Bernice Johnson, of Texas.............................    55

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Margaret Gilligan and Hon. David Grizzle, joint statement...    57
Jeffrey B. Guzzetti..............................................    68
Gerald L. Dillingham, Ph.D.......................................    84
Thomas L. Hendricks..............................................   104
Scott Foose......................................................   106
Captain Sean Cassidy.............................................   114
Gary M. Fortner..................................................   122

                       SUBMISSIONS FOR THE RECORD

Families of Continental Flight 3407, written statement...........     2
Scott Foose, Senior Vice President, Operations and Safety, 
  Regional Airline Association (RAA), May 4, 2012, letter to 
  chairman and ranking member of the Subcommittee on Aviation 
  clarifying information presented during the hearing, and RAA 
  member list....................................................    39
Hon. Margaret Gilligan, Associate Administrator for Aviation 
  Safety, Federal Aviation Administration, responses to questions 
  from Hon. Jerry F. Costello, a Representative in Congress from 
  the State of Illinois..........................................    65






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                      A REVIEW OF AVIATION SAFETY
                          IN THE UNITED STATES

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Thomas Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order.
    Although the United States aviation system is very safe, 
when it comes to aviation safety there is always room for 
improvement. The top priority for our subcommittee is safety, 
and I know that the FAA, aviation operators industry, and 
passenger advocate groups share that priority.
    With this in mind, today we will review the FAA's safety 
oversight activities, covering a broad range of issues.
    As we have noted many times in the past, the United States 
aviation system is the safest in the world. On any given day 
the FAA's air traffic controllers will handle over 28,500 
commercial flights. In 2011, there were no commercial passenger 
airline fatalities. Over the past 5 years, roughly 52 million 
passenger flights were operated safely. This high level of 
safety is the result of collaborative efforts by the FAA, 
Congress, industry and by other stakeholders.
    But we must not forget the one tragic fatal commercial 
accident during those 5 years. We have taken steps with the 
passage of the Airline Safety and Federal Aviation 
Administration Act of 2010 to address the identified weaknesses 
that contributed to that tragedy, and we are accepting a 
statement for the record from the relatives of some of the 
victims of that airline disaster.
    [The Families of Continental Flight 3407's prepared 
statement follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Mr. Petri. While the U.S. aviation system enjoys a high 
level of safety, there are areas in which safety can be 
improved. The General Accounting Office and the Inspector 
General of the Department of Transportation have conducted 
audits and studies to assess the FAA's safety oversight role in 
a variety of areas, including terminal area safety, operational 
errors, safety management system, oversight of repair stations, 
and rulemakings required by the Airline Safety and FAA 
Extension Act of 2010.
    Today the subcommittee will hear testimony from 
representatives of the Government, industry, and labor on these 
and other safety oversight issues. As we hear testimony from 
today's witnesses, I would like to highlight two areas of 
safety oversight.
    First, we will look at the requirements included in the 
bipartisan 2010 Safety Act. As stated previously, this law was 
enacted in response to the findings of the National 
Transportation Safety Board and other investigations of the 
tragic Colgan crash in February of 2009. The reforms directed 
the FAA to, among other things, set new requirements for pilot 
flight and duty time and pilot training and directed the FAA to 
develop and maintain a pilot records database.
    We recognize the Colgan family members for their continued 
oversight and attention to ensuring that these requirements are 
put in place.
    I understand that the FAA has made progress on several of 
the required rules, but that significant challenges remain in 
terms of implementing other requirements. We look forward to 
discussing the steps that have been taken and what remains to 
be addressed to successfully implement the law.
    The second area that I would like to highlight is the 
increase in operational errors in recent years. According to 
the Inspector General, operational errors where there is a loss 
in required separation between aircraft have increased, but the 
FAA is not able to fully explain the reason for the increase. 
Operational errors pose a safety risk to the aviation system 
and need to be mitigated.
    According to the FAA, the increase in operational errors is 
the result of increased reporting through the voluntary and 
nonpunitive air traffic safety action program. Following the 
audit, the IG found no evidence to support this assertion. The 
Inspector General concluded that the exact cause for the rise 
in operational errors is unclear. Given this, we are interested 
in exploring this with the FAA so that we can understand the 
true cause of the increase in operational errors and fully 
address the safety issue.
    It is our responsibility, regardless of how safe the system 
is, to conduct oversight and address any possible safety issues 
that may be present or arise in the future.
    I look forward to hearing the testimony from the witnesses, 
and thank you again for attending this important oversight 
hearing.
    Finally, before I recognize Mr. Costello for his opening 
statement, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material in the record of this hearing.
    Without objection, so ordered.
    I now recognize Mr. Costello for his opening statement.
    Mr. Costello. Mr. Chairman, thank you, and I thank you for 
calling the hearing today to review aviation safety in the 
United States. I am pleased to see that a number of the Colgan 
families are with us here, as they have been many times for 
hearings over the past several years.
    We all know that the United States commercial aviation 
system is the safest in the world. It is the safest because of 
the hard work of many individuals and professionals over many 
years at the FAA, the National Transportation Safety Board, 
Government auditing agencies, organized labor, the airline 
industry and also Congress, and in particular this 
subcommittee.
    As both the chairman and ranking member of the Aviation 
Subcommittee, I have always made safety my top priority, and I 
know that Mr. Petri has as well. In the 110th and 111th 
Congresses we held 19 safety-related hearings and roundtables, 
including 2 hearings on runway safety, 4 hearings on pilot 
training and fatigue and a hearing on the FAA's oversight of 
outsourced airline maintenance.
    Additionally, in response to the February 2009 Colgan 
Flight 3407 crash, we worked together to enact sweeping airline 
safety and pilot training reforms, the strongest piece of 
airline safety legislation in decades. We will receive updates 
on all of these subjects today, and it is important that we 
continue to hold subsequent hearings on the implementation of 
the airline safety law.
    I am pleased that we passed and the President signed into 
law the FAA reauthorization bill, although I disagreed with the 
funding cuts in the House bill which the FAA testified would 
have harmed safety because the FAA would have had to furlough a 
large number of safety employees. Fortunately, these cuts were 
rejected in the final conference report. Nevertheless, the DOT 
IG will testify today that we will still need to keep a close 
eye on whether the FAA has an adequate number of safety 
inspectors.
    Likewise, we had a heated debate over an amendment accepted 
on the House floor that both the NTSB and the FAA said would 
undermine aviation safety rulemakings, including a new pilot 
fatigue rulemaking. I opposed this amendment, which was also 
opposed by the Colgan families. The amendment was dropped from 
the conference report, the fatigue rule has been finished, and 
the American public is safer now today because we won that 
battle.
    Looking forward, we must continue to work together to 
ensure that safety continues to be the subcommittee's highest 
priority and that we do not enact policies that could undermine 
our work to improve safety.
    We should continue to be vigilant about the FAA's oversight 
of contract repair stations. Based on a 2003 DOT IG report that 
identifies weaknesses in the FAA's aircraft repair station 
oversight, some members of this subcommittee wanted to require 
foreign repair stations to be inspected at least twice a year. 
Instead, Congress adopted a primarily risk-based inspection 
approach in the recently enacted FAA bill. However, the DOT IG 
will testify that several weaknesses that they originally 
identified in 2003 still remain and that this issue still 
requires vigorous oversight.
    Generally speaking, I am encouraged by the progress the FAA 
has made implementing the comprehensive airline safety and 
pilot training bill that we enacted in the 111th Congress. I 
commend Secretary LaHood and the acting administrator for 
completing a pilot fatigue rule and proposing a new pilot 
training rule that will dramatically increase the training 
standards for first officers.
    As the Colgan tragedy made very clear, aviation safety 
depends on making sure pilots have the training and experience 
necessary to deal with adverse situations. I will continue to 
work with the FAA and all interested stakeholders as this 
process continues to make sure that the FAA produces the 
strongest possible rule.
    Mr. Chairman, I thank you again for calling the hearing 
today. I look forward to hearing from our witnesses and I will 
have several questions for them as well. Thank you.
    Mr. Petri. Thank you.
    I would like to ask unanimous consent that our colleague 
William Shuster, a member of the full committee, be permitted 
to participate in all of the proceedings of this subcommittee 
hearing.
    Mr. Duncan, do you have an opening statement?
    Mr. Duncan. Thank you very much, Mr. Chairman. I have heard 
the opening statements that you and Ranking Member Costello 
have given, and I certainly agree with all of your remarks. And 
I salute you, Mr. Chairman, and Ranking Member Costello for the 
great work you have done in this Subcommittee on Aviation 
Safety. Certainly we all want to try to make our aviation 
system as safe as possible and do whatever we can. You can 
never rest on your laurels in any field or profession or 
occupation, and we shouldn't rest on our laurels about aviation 
safety. We should always be trying to make things better and 
improve things that we can.
    By the same token, the American aviation system has the 
greatest record of almost any industry and anything. I did 
chair this subcommittee for 6 years, but I now chair the 
Highways and Transit Subcommittee, and it is a very unfortunate 
thing that we have about as many deaths in 3\1/2\ months on the 
Nation's highways as we have had in all U.S. aviation accidents 
combined since the Wright Brothers' flight in 1903.
    I am concerned. I know that this hearing is supposed to 
look at aviation safety in general, and there are many 
different aspects of it. I am concerned about something though 
that we will get more into in the second panel, and I won't be 
able to be here at that time because starting at 10 o'clock I 
am going to be leading a tribute on the floor of the House to 
Coach Pat Summitt, who received the top award of the National 
Alzheimer's Association and is being honored by the Tennessee 
delegation on the floor of the House this morning.
    But there is a provision to apply these same flight crew 
rest requirements to cargo aircraft as passenger aircraft, and 
I think we need to be very careful before we--we need to look 
before we leap on that, because I am told that that rule, if 
applied to cargo airlines, would cost, according to the FAA's 
own analysis, $306 million, which is about 15 times the 
benefits that would accrue. In addition to that, cargo pilots, 
I am told many cargo pilots now fly only 31 hours a month, 
which seems to me is a real sweetheart deal, and fly about half 
the time that passenger pilots fly. So I just don't know that 
we may be correcting a problem that doesn't exist.
    I understand that there were only two crashes in the last 
30 years, or two accidents by cargo planes, and neither one of 
those would have been prevented by this rule that we are 
talking about. In fact, one of them apparently came about 
because of personal problems that the pilot was having at home 
and not anything due to rest.
    So, I hope we look into that proposed legislation very, 
very carefully before we get into it.
    Already, because of the cost of fuel, we have been told 
over the years that each one penny increase in jet fuel costs 
the aviation industry as a whole $180 million to $200 million a 
year, a phenomenal statistic. And now because fuel has gone up 
so much, passenger travel is going to shoot way up, and because 
cargo planes carry almost everything, the cost of almost 
everything is going to go up. So we need to be very careful in 
what we do in this regard.
    I thank you very much for yielding me this time.
    Mr. Petri. Thank you. Mr. Shuster, would you care to make a 
statement?
    Mr. Shuster. Thank you, Mr. Chairman. I will be brief.
    I was the author of that amendment that passed on the House 
floor that was taken out in committee. I was disappointed, 
because that amendment I believe dealt directly with safety 
first. But looking at things based on science, not on emotion, 
not on knee-jerk reactions, but based on the cost-benefit 
analysis and looking at the different operations that the 
pilots they participate in, there is passenger and cargo. And 
there is a difference, as my colleague from Tennessee pointed 
out. The time that a pilot operates cargo versus passenger 
aircraft is significantly different.
    But I am very pleased that the FAA came with a final rule 
regarding the flight crew duty and rest requirements, and it 
followed, as did our amendment, followed the President's 
Executive order. I don't always agree with the President, but 
in this case we were on the same page. So, the final rule I 
believe does reflect the Executive order, it does reflect an 
amendment we tried to pass, and it looks at passenger versus 
cargo in a different way. One size doesn't fit all.
    My colleague also pointed out the cost-benefit analysis, 
the cost to the industry, which is probably much higher than 
the FAA thinks it would be. As I said, once size does not fit 
all. There are a few other significant things the cargo 
industry has done in the past several years. It has reduced all 
accidents significantly over the past two decades, and since 
2003, have operated over 8 million flight operations with no 
fatigue-related accidents. That is a pretty strong indication 
they are doing the right thing.
    It provides more and longer flight crewmember rest 
opportunities than passenger flights. They spent millions of 
dollars on sleep facilities, both in cargo hubs and on board 
long-range aircraft. It operates with no passengers or flight 
attendants, thereby allowing restful sleep aboard long-range 
aircraft. And schedule of pilots, as was mentioned, they fly 
significantly less than the passenger pilots.
    So, again, I am looking forward to the hearing. I 
appreciate and respect and support what the FAA did on this, 
and I will continue to fight to make sure we do rules and 
regulations in a reasonable way while maintaining a high level 
of safety.
    With that, Mr. Chairman, I yield back.
    Mr. Petri. Mr. Boswell, did you have a word you wanted to 
say?
    Mr. Boswell. Thank you, Mr. Chairman. Just very briefly. I 
told you I did not, and I looked over your panels, and I just 
want to thank you for having the experts you have got before 
you now. But I am also very interested in Panel 2 that we are 
going to have.
    It just made me reminisce for a second. Years and years ago 
when I became a safety officer in a unit that I was in, and I 
found out when I sat down with the crews, the pilots, the 
people that flew in the aircraft and so on, is where I really 
put it together, and we had what turned out to be an excellent, 
very successful program. So I am glad to see that you have 
airlines and regionals and the Airline Pilot Association as you 
go down that list.
    So, thank you very much. I think that we will learn a lot 
and I look forward to what comes out of this. So I yield back.
    Mr. Petri. I recognize the chairman of the full committee, 
John Mica from Florida.
    Mr. Mica. Well, thank you. And as Elizabeth Taylor said to 
her sixth husband, I don't intend to keep you long. I will try 
to be as brief as possible, like Mr. Boswell.
    Well, first of all, I have to say thank you to Mr. Petri 
and Mr. Costello. This is a very important hearing and a very 
important responsibility of this subcommittee, and that is our 
aviation industry and passenger service safety and oversight of 
that.
    Let me just say here we have been so fortunate. We have had 
some great leadership working together. We did pass finally FAA 
legislation that was 5 years overdue, 23 extensions. In the 
interim we worked together.
    The large commercial aircraft have had an incredible safety 
record. We saw some problems with commuter, and through the 
Colgan families and others everyone was determined to make 
certain tat commuter passengers are just as safe as those on a 
large commercial aircraft. We lost lives there. We put some 
reforms in place, and actually last year's record was 
incredible.
    But let me tell you this. Mark this in the record. We will 
have a horrible incident involving passenger aircraft. Why do I 
say that? Because the odds are just totally stacked against us. 
You can only go so long when you have so many human beings 
involved, when you have technology that sometimes fails. And 
people are going to come back and say well, what did they do to 
make certain that this didn't happen? And this hearing is one 
of them. And we have missed the mark.
    I just got through talking to an aviation group, and I 
cited NextGen. NextGen provides us not only a better way to get 
our planes around, environmentally more friendly, shorter 
points, knowing where the planes are in the air, on the ground, 
changing out of a post-World War II radar-based system to a 
satellite based system, all of that. But that program is 2 
years behind. It is at half a billion dollars. Some of the 
technical components, for example ERAM, 2 years behind, half a 
billion dollars behind. And this needs to come out.
    We have had FAA in turmoil, because I remember Babbitt 
coming to me and people say why did you push to move this bill 
forward? Because Randy Babbitt told me that his operations were 
in a state of confusion. These 2-month, 2-week extensions, were 
costing millions of dollars and keeping the agency in turmoil. 
Now we have him departed. We have had an FAA with no 
administrator at some times, now an acting administrator and an 
under-siege administrator. And it is difficult to get things 
done in that atmosphere. Then you don't have the blueprint, 
which is the Federal law which we now have in place.
    So this is an opportunity to get it back in place. I am 
hoping that we don't have what I described that we are long 
overdue for, and that is going to be, unfortunately, again 
there are just so many human beings, so much technology in 
place.
    You have got to have two things that I think are important. 
One, you have to have the personnel, and you have to have the 
technology. I talked about that for a second. That is behind 
schedule, over budget and not acceptable.
    The second thing is personnel. We have some great air 
traffic controllers, and thank goodness in the most recent 
months we have not had another incident of somebody sleeping on 
the job or not paying attention on the job or lax on the job. 
Most of the incidents, and every one of them the staff will 
tell you, every incident I try to investigation, was this a 
rookie air traffic controller or was this somebody experienced. 
Most of the incidents, unfortunately, have been with people who 
have been experienced.
    So we have met, and we have got to redouble our effort, 
guys, to make certain that the air traffic controllers, and we 
are changing many of them out because of their age and 
retirement. So you have to have a program to make certain that 
they are the best trained and also the best prepared, best to 
go to work rested and all of these things.
    And some of the conditions where air traffic controllers 
actually in the United States stink, they need to be improved. 
I have seen pets accommodated better than some of our air 
traffic controllers, and that needs to be changed out and I am 
going to work with folks to do that. We saw some of the 
accommodations in Canada that were just outstanding workplaces 
and conducive to putting a rested, alert well-trained air 
traffic controller on the job. So we have got to improve that 
part of the equation, which is the human equation.
    So I guess that is my little longer than I should talk, but 
this is very important. Again, I commend you and we will stay 
on it with you and work with the agencies. I want to hear from 
the witnesses. Thank you, I yield back.
    Mr. Petri. Thank you. Now we turn to our panel. The 
Honorable Margaret Gilligan, who is the associate administrator 
for Aviation Safety of FAA; the Honorable David Grizzle, the 
chief operating officer, Air Traffic Organization at the FAA; 
Jeffrey B. Guzzetti, who is the assistant inspector general for 
aviation and special programs of the Department of 
Transportation; and the person who assists us on many of these 
occasions, Dr. Gerald Dillingham, director, physical 
infrastructure issues, Government Accountability Office.
    Ma'am and gentleman, thank you very much for joining us. As 
you know, we thank you for your prepared statements and would 
invite you to summarize them in approximately 5 minutes, 
beginning with Ms. Gilligan.

    TESTIMONY OF THE HONORABLE MARGARET GILLIGAN, ASSOCIATE 
      ADMINISTRATOR FOR AVIATION SAFETY, FEDERAL AVIATION 
 ADMINISTRATION; THE HONORABLE DAVID GRIZZLE, CHIEF OPERATING 
   OFFICER FOR AIR TRAFFIC, FEDERAL AVIATION ADMINISTRATION; 
 JEFFREY B. GUZZETTI, ASSISTANT INSPECTOR GENERAL FOR AVIATION 
 AND SPECIAL PROGRAMS, U.S. DEPARTMENT OF TRANSPORTATION; AND 
GERALD L. DILLINGHAM, PH.D., DIRECTOR, PHYSICAL INFRASTRUCTURE 
            ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gilligan. Chairman Petri, Congressman Costello and 
members of the subcommittee, thank you for inviting us here 
today to review aviation safety in the United States. I would 
like to update you on the progress we have made to implement 
the Airline Safety and FAA Extension Act of 2010. But as 
mentioned in your opening statements, we know there is a lot of 
interest in air traffic control as well, so I am joined today 
by my colleague David Grizzle, the chief operating officer for 
the Air Traffic Organization, who will be here to answer any 
questions you may have on air traffic management.
    Several provisions in the 2010 act helped facilitate major 
safety advancements, such as the new flight duty and rest 
requirements for pilots and a proposal to require air carriers 
to implement safety management systems. Although some of the 
provisions have taken longer than Congress anticipated under 
the provisions of the act, we have made significant strides in 
accomplishing many of the objectives.
    In the area of pilot fatigue, which was identified as a top 
priority in the FAA's 2009 call to action, we completed the 
final rule, which uses the latest fatigue science to establish 
flight schedules that mitigate and manage fatigue. Flight duty 
periods under the new rules are more comprehensive and include 
flight-related activities such as time spent in training and 
standing by on call for flights at an airport. These duties are 
part of the workday, they contribute to fatigue, and they must 
be counted as part of the core job of flying the airplane.
    We also took into account that off duty activities, such as 
recreational activities or commuting, have an impact on 
fatigue. To address this, the final rule establishes new 
fitness for duty requirements that serve as a reminder to both 
the airlines and the pilots of their professional 
responsibilities to ensure that rest periods are used for what 
they are intended, and that is to rest.
    We met the statutory deadline in the 2010 act to issue a 
proposal requiring air carriers to develop and implement safety 
management systems. The FAA and industry recognize SMS as a 
holistic approach to safety that allows for trend spotting to 
help identify possible safety problems and correct them before 
they lead to accidents or incidents.
    We have initiated two rulemaking projects to address the 
pilot training and experience requirements highlighted in the 
act. The first project is a comprehensive proposal to revise 
the current qualification and training requirements not just 
for pilots, but for flight attendants and aircraft dispatchers.
    Although we had initiated this project before the tragic 
Colgan accidents, in order to fully consider the comments we 
received on the proposal, to address many NTSB recommendations 
that resulted from the investigation of that accident, and to 
incorporate the mandates of the 2010 act, we issued a 
supplemental proposal in May 2011. The comment period closed in 
September and we are working on the comments to develop a final 
rule to address these training enhancements.
    We have also proposed a rule to require first officers to 
hold an airline transport pilot's certificate requiring 1,500 
hours of pilot flight time in most cases. We appreciate that in 
the act Congress acknowledged the measurement of pilot 
experience is not limited solely to the number of hours flown, 
so our proposal would allow a restricted airline transport 
pilot's certificate in two instances. First, graduates of a 4-
year aviation degree program who receive their commercial 
pilot's certificate and instrument rating while studying at the 
school would need only 1,000 hours of flight time. Former 
military pilots would require only 750 hours of flight time. 
The comment period on this proposal will close April 30th.
    There are, as you have noted, a few areas of the 2010 act 
that have presented some challenge to the FAA. The first 
concerns the area of pilot professionalism. We in industry 
recognize the need to continuously improve professional 
standards to improve flight deck discipline. We have drafted a 
proposal that is currently in executive review as we continue 
to work on balancing the regulatory burden and the 
effectiveness of the proposal.
    Another challenging area is the development of a 
centralized database of pilot records. We are working to define 
the scope of the records to be reported and how to integrate 
thousands of records kept on all forms of media from paper to 
microfiche to various automated systems. We do have several 
major milestones in place and we do anticipate a database proof 
of concept test this summer.
    All of these initiatives have been very complicated and in 
some cases very expensive. As the rulemakings progress, we are 
constantly evaluating how these provisions may best be 
leveraged to improve safety while ensuring the benefits justify 
the costs. We remain committed to addressing these safety 
enhancements while continuing with our daily oversight 
responsibilities, and now while satisfying the requirements 
recently set forth in the FAA Modernization and Reform Act of 
2012.
    Chairman Petri, Mr. Costello, members of the subcommittee, 
this concludes our prepared remarks and we are prepared to 
answer questions. Thank you.
    Mr. Petri. Thank you. Mr. Grizzle.
    Mr. Grizzle. Sir, I do not have a statement separate from 
Ms. Gilligan's.
    Mr. Petri. All right. Mr. Guzzetti.
    Mr. Guzzetti. Chairman Petri, Ranking Member Costello, and 
members of the subcommittee, thank you for the opportunity to 
testify today on the state of aviation safety and FAA's 
oversight of the National Airspace System.
    As you know, FAA does operate the world's safest 
transportation system, largely due to the dedication of its 
workforce. FAA has implemented many initiatives to enhance 
safety, such as its recent actions in response to the 2010 
Airline Safety and FAA Extension Act. However, to realize the 
full benefits of the programs it has in place, FAA must address 
challenges in three key areas.
    First, FAA needs to improve the way it collects, counts and 
uses data regarding incidents where aircraft come too close 
together in the air and on the ground. Over the past few years, 
FAA has encouraged controllers to voluntarily report errors 
through the Air Traffic Safety Action Program, or ATSAP. 
However, FAA does not count all ATSAP reported errors in its 
yearly totals. As a result, it is unclear whether the 53-
percent rise we saw in reported controller errors between 
fiscal years 2009 and 2010 is due to more errors, improved 
reporting, or both.
    According to FAA, the increase is likely due to more errors 
being reported through ATSAP, but our work does not support 
this assertion. The agency's en route centers which have had 
systems in place for years to automatically detect separation 
losses saw a 39-percent increase in errors during that same 
period. This would indicate that the increase is due at least 
in part to more actual errors occurring.
    It is clear that FAA can better leverage existing data to 
investigate incidents, identify trends and root causes and 
mitigate their risks. Currently FAA does not effectively 
analyze data captured through ATSAP or through its automated 
detection tool recently installed at terminal facilities.
    With runway incursions, FAA has made progress in reducing 
the most serious ones. Serious incidents declined over the past 
decade from 53 in fiscal year 2001 down to only 7 in fiscal 
year 2011. However, the number of serious incursions reported 
so far this fiscal year is already up to 12, which is nearly 
double last year's events. To sustain the progress made in past 
years, executive level oversight and accountability will be 
needed. This is going to remain a watch item for our office.
    Second, FAA needs to improve its risk-based oversight of 
the aviation industry. In particular, oversight at repair 
stations has been a longstanding challenge for FAA and one we 
have reported on since 2003. While FAA established a risk-based 
system in 2007 for improved surveillance, our ongoing work 
indicates there are still problems. For example, the system is 
not applied consistently and it does not permit trend analyses 
needed to better target repair stations with the greatest 
risks. Our work has also shown that FAA needs to strengthen its 
risk-based oversight of aircraft manufacturers under its 
relatively new delegated authority program known as ODA. We 
issued a report on ODA last year and FAA has responded 
positively to our recommendations.
    Because FAA may never have enough inspectors to oversee 
every aspect of aviation, it is critical that it target its 
inspector workforce to areas with the highest risk. A 2006 
study mandated by this subcommittee found that FAA wasn't 
effectively allocating its inspector workforce and they 
recommended a new approach. FAA introduced a new staffing model 
in 2009 and we are currently evaluating it. Thus far, however, 
it appears that FAA needs to further refine the model to obtain 
reliable staffing projections.
    Finally, FAA needs to continue its focus on implementing 
key provisions of the Airline Safety Act. FAA has made progress 
on many of the Act's provisions, such as updating pilot rest 
requirements. However, the agency has been challenged to 
implement other key measures, as Ms. Gilligan mentioned. For 
example, the new rest rules do not require carriers to identify 
pilots who commute hundreds or thousands of miles to their duty 
location. FAA is also several months behind on issuing rules to 
improve pilot training and implement pilot mentoring programs. 
All of these issues were seen in the tragic 2009 Colgan crash.
    FAA is also behind in its efforts to enhance pilot 
qualifications. The agency expects to issue a rule by August 
2013, a year after the mandated deadline. Due to the increase 
in flight hours the rule will require, FAA has met opposition 
from airlines who feel the quality and type of training should 
be weighted more heavily than the actual number of hours. 
Airlines are also concerned that entry level pilots will have 
difficulty meeting the new flight time mandates.
    FAA also faces challenges in developing a centralized pilot 
records database for carriers to use when hiring pilots. These 
challenges include determining what records should be captured, 
maintaining the flow of information during that transition, and 
addressing concerns with the National Driver Register data.
    In closing, Mr. Chairman, let me reiterate that FAA has 
overcome many challenges and continues to take important steps 
to oversee aviation safety. We will continue to monitor FAA's 
progress to address these issues and we will keep this 
subcommittee apprised of our work.
    This concludes my statement. I will be happy to address any 
of the questions you or other members of the subcommittee may 
have.
    Mr. Petri. Thank you. Mr. Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Costello, Mr. Duncan and other members of the committee. As you 
have heard from previous witnesses, FAA regulates one of the 
safest aviation systems in the world, and to its credit FAA 
continues to strive for even higher levels of safety through a 
shift to a more data-driven, risk-based safety oversight 
approach. This shift means that FAA needs safety data that is 
accurate, complete, and gives it the capability to identify 
systemwide trends and manage emerging risks.
    My testimony this morning focuses on three key aspects of 
FAA's implementation of its new approach. First is how FAA uses 
data to manage safety risk; second is how FAA ensures the 
quality of its safety data; and third are the several 
challenges the agency must address in using data to better 
manage aviation safety.
    Regarding how FAA uses data to manage safety, FAA collects 
accident data and uses various voluntary reporting programs to 
collect incident data, such as for runway incursions and 
operational errors. FAA also collects data through its 
inspection and certification program.
    For decades, FAA, NTSB, and the aviation industry have used 
data primarily in a reactive fashion; that is, after an 
accident, to identify the causes and take action to prevent 
their reoccurrence. FAA's new use of safety data combines this 
approach and a proactive approach in which data are used to 
identify emerging risks and strategies to reduce the likelihood 
of accidents before they occur.
    FAA also plans to use data proactively to identify risks 
that might emerge with the introduction of NextGen capabilities 
into the NAS. In 2010, GAO examined how FAA ensures the quality 
of that data. We found that the agency had a variety of 
processes in place that we consider good practices to help 
ensure data quality. However, we did identify some 
vulnerabilities in FAA's processes that could potentially limit 
the usefulness of its data for both safety analysis and for 
conducting oversight through safety management systems. We made 
several recommendations to FAA to help improve and expand on 
this capability to use data.
    Mr. Chairman, although FAA has put in place various quality 
controls for its data, it continues to experience data 
challenges, some of which may hinder the agency's ability to 
assess and manage risks. Similar to the IG's findings, it is 
unclear if the recent increase in operational error reports is 
due to more actual reporting or an actual increase in errors. 
FAA also lacks data in some areas that are important for 
monitoring safety risks. For example, the lack of ramp incident 
data means that FAA is unable to assess the risk of safety 
events in that area.
    Another challenge is in what some industry stakeholders 
have identified as the number one air transportation safety 
issue. That is runway safety. According to FAA, there are three 
runway incursions that occur each day at towered airports in 
the United States, and research has also shown that runway 
excursions can be just as dangerous as incursions.
    Our October 2011 study found that FAA does not have a 
process in place to track and evaluate runway excursions. The 
absence of such a process inhibits FAA's capability to address 
the risks of these time of safety events. Similarly, the lack 
of complete data for inspections of pilot training schools and 
pilot examiners makes it difficult for FAA to ensure that the 
training standards are being met for the initial training of 
pilots. In response to our recommendation or on its own 
volition, for each of the challenges I have identified, as well 
as others that are listed in our written statement, FAA has 
efforts planned or underway to address them.
    In closing, Mr. Chairman, given FAA's forecast of 
significant increases in aviation traffic, we would urge that 
all stakeholders not become complacent with the extraordinary 
aviation safety record that has been achieved to date and 
continue to do what will be necessary to make a safe system 
even safer.
    Thank you, Mr. Chairman.
    Mr. Petri. Well, thank you. I thank you all for your 
summaries. I have a couple of questions.
    Ms. Gilligan, if you have looked at this, it is indicated 
the FAA safety management pilot program, there is a difference 
in the participation between the larger airlines and smaller 
airlines. I think the information I have is that 14 of the 15 
smaller air carriers, those with 20 planes or less, are not 
participating in the program, and the point was made that it 
might not be scalable for smaller airplanes. Is that true or is 
that something that is of concern or is that being addressed? 
Could you discuss that?
    Ms. Gilligan. Yes, Mr. Chairman. Thank you. As you know, we 
do have a pilot program, because, before we put the rule in 
place, we wanted to learn ourselves what was the best way to 
frame the regulation for the safety management system. The 
pilot program has been very helpful in helping us better 
understand what the necessary elements are, and specifically to 
your question, how can we assure that the rule allows it to be 
appropriate to the size of the operation.
    This is something we have been aware of for a long time. I 
believe former Administrator Babbitt testified to this 
committee that in an airline with two airplanes and a small 
number of crew, written records may be sufficient, whereas at 
the newly merged United Airlines, for example, clearly 
automated systems that know how to collect and analyze data 
will be necessary to be successful. We are taking that all into 
account as we look at finalizing our rule to assure that the 
rule is sufficiently flexible to allow all of the operators to 
make the most use out of a safety management system effectively 
and efficiently. So we will be watching closely to be able to 
scale it to the size of the operation.
    Mr. Petri. Thank you. I think this was mentioned by Mr. 
Guzzetti, but I wonder if you could respond. The people in the 
repair station industry argue that the oversight by the FAA is 
often inconsistent between FAA offices and even within FAA 
offices. Do you recognize that problem or is it being dealt 
with or is there an explanation for that situation?
    Ms. Gilligan. Yes. Again, Mr. Chairman, we certainly have 
heard the criticism of inconsistency among FAA offices. We are 
a large organization with over 125 offices across the country 
and around the world, and individuals who come to work 
intending to do the best they know how to do every day can 
sometimes disagree. So we are constantly looking for ways to 
document what the proper processes and procedures are so that 
our staff is well informed and well trained.
    We do have processes in place for any of our certificate 
holders to raise questions if they believe that they have 
gotten an inaccurate or an incorrect determination from one of 
our inspectors, and we are really building a culture that 
allows for that exchange of professional disagreement, because 
we think that is healthy. Folks in the industry are smart. FAA 
doesn't have the corner on the market on how to interpret all 
of the rules and regulations. We need to work together to make 
sure that we have the right safety outcome.
    So we believe with those kinds of programs in place, where 
people can ask questions, we will all get to the best safety 
outcome. But it is a criticism we are constantly working to 
improve.
    Mr. Petri. Thank you. There has been some discussion, Mr. 
Grizzle, of the increase in reported incidences of operational 
errors and then some speculation as to the reason, whether it 
is better reporting or more actual errors or whatever. Could 
you shed any light on that situation?
    Mr. Grizzle. Mr. Chairman, we have been in the process of 
making a substantial change to the culture within the Air 
Traffic Organization to encourage the voluntary reporting of 
operational incidents. We have also been changing our entire 
program for data acquisition of events that do occur. We are 
confident that because of these cultural changes, the reporting 
of incidents has increased. But we are not able to tell which 
part of the increase is the result of greater reporting and 
which part of the increase is the result of more incidents in 
fact occurring.
    However, as you know, the occurrence of incidents is 
extremely rare and that is the reason that we have paid a great 
deal of attention to making sure that we are able to harvest as 
much information as we possibly can from every incident so that 
we can turn that data into information which then becomes risk 
managing changes of procedures, and we have done a very good 
job in that regard.
    Mr. Petri. Thank you. Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Chairman, just to put things in perspective, if I may, 
to follow up on Mr. Grizzle's comments, I think it is 
noteworthy to take a look at how many operations take place a 
year versus how many operational errors there have been 
reported. And as the chairman said earlier and a number of 
other Members have said, one incident of operational error is 
too many and we need to do everything we can to reduce the 
number of errors.
    But when you take a look at the ATC operations, how many 
operations they handled in fiscal year 2009, there were 120.3 
million and there were 1,234 operational errors, which is 0.001 
percent of the total operations that year. The number of flight 
operations that the air traffic system handled in fiscal year 
2010, there were 118.9 million operations and there were 1,187 
operational errors, which is 0.0016 of the total in that year. 
So it comes down to in fiscal year 2009 about 1 error reported 
either by someone in the system, including a pilot, to 1 error 
per 100,000 flight operations and 1.5 percent errors per 
100,000 flight operations in fiscal year 2010. So I think it is 
worth noting. The purpose of this hearing is to make certain 
that we reduce to zero, so there are zero operational errors.
    With that being said, Dr. Dillingham, let me ask you, in an 
October GAO report, the report, and I quote, says, ``We found 
evidence to suggest that changes to reporting policies and 
processes have likely contributed to the increased number of 
incidents reported into the ATQA, the official data base for 
operational errors.''
    Would you explain some of the evidence that you reviewed, 
the GAO reviewed, in order to reach that conclusion?
    Mr. Dillingham. Thank you, Mr. Costello. We looked at some 
of the data that you in fact have just provided to us and we 
also looked at other situations where new policies and 
procedures were put in place at the same time as technology was 
put in place. And what we found in terms of evidence is we 
found an association wherein we could see that there were more 
operational errors being reported at the same time that these 
various other activities were taking place, but we could not 
establish a causal relationship and sort out the factors that 
might be having the most effect on this reporting. And until 
that kind of analysis is done, until that kind of statistical 
analysis is done, as Mr. Grizzle said, it is an unknown, 
logically it fits, but sometimes logic goes out when you 
actually do the statistical analysis to ensure that what you 
are seeing logically is in fact real.
    Mr. Costello. A followup question. In talking about the 
series of recent policy changes that Mr. Grizzle referred to 
and you referred to as well, the FAA is reporting processes 
that include making incident reports less punitive, removal of 
facility incident targets, implementation of new technology and 
a shifting to a risk-based system.
    Would you explain for the record some of these changes and 
whether or not you believe that there is a correlation between 
these changes and the increase in reporting of operational 
errors? You touched on that in answer to my first question, but 
everything that I have read I have to conclude that there is a 
correlation. You have no reason to doubt that there is a 
correlation, is that correct?
    Mr. Dillingham. I don't have any reason to doubt there is a 
correlation. I would be hesitant to use that statistical term 
of correlation. But understanding what you mean and that there 
is in fact some kind of likely association, all of the things 
that you mentioned as policy changes would contribute to having 
people feel more free to in fact report incidences that they 
were aware of.
    Mr. Costello. For the record, could you explain just a few 
of the policy changes that the FAA has been dealing with at the 
same time taking into account these operational error reports?
    Mr. Dillingham. Yes, sir. You mentioned one, the removal of 
the limits that were in place for the number of operational 
errors that could be reported by a facility. When that limit 
was removed, it meant that supervisors were not as concerned 
about going over that limit and anything that might result, any 
kind of discipline or negative association that would result 
from reporting as many operational errors as occurred.
    There is also a de-identification of the controllers who 
are in fact making those kinds of reports, so that again the 
anonymous nature of it made controllers feel a lot safer or 
freer in making those kinds of reports.
    So all of those things together were contributing factors 
as far as we can determine at this point.
    Mr. Costello. Thank you. Mr. Grizzle, would you explain 
what not-to-exceed targets were and whether or not you agree 
with the GAO's assessment?
    Mr. Grizzle. We do agree with the GAO's assessment. Our 
centers have had automatic incident detection technology for 
quite a while. We took our ATO total of incidents that we were 
expecting and we allocated that to facilities so that each 
facility, in effect, had a quota that they were not to exceed. 
Unlike the new error detection technology that we are 
implementing now, which is referred to as TARP, the technology 
that was in place in the centers involved evaluation and 
characterization of the incidents in the facilities. And so 
there was an opportunity for facility managers to characterize 
the events as errors or not. Consequently, with the ``not-to-
exceed'' requirement in place, this was in fact an incentive 
and a capability to manage down the number of incidents that 
had been reported with the automatic detection technology.
    Mr. Costello. A final question, and then I will probably 
come back and have a few more after the first round. What if 
any role did the TARP program, the Traffic Analysis and Review 
Program, and the implementation of the radar voice replay 
technologies play with regard to the increase in the operation 
error?
    Mr. Grizzle. It certainly has an impact. The TARP is in the 
process of being implemented. It is currently in place in all 
of our terminal facilities, but the data is only being analyzed 
currently at 37 of the facilities. By the end of this fiscal 
year, the data from all of our terminal facilities will be 
analyzed for 24/7 operations, and at that point we believe it 
will have a substantial impact on our reportable incident 
numbers.
    Mr. Costello. Mr. Guzzetti, would you care to comment?
    Mr. Guzzetti. Yes. To piggyback on Mr. Grizzle's comments 
about the implementation of TARP, FAA estimates that the number 
of reported operational errors will increase greatly, perhaps 
by as many as 600 to 900 additional losses of separation each 
day. But again, not all losses of separation are operational 
errors. In fact, just a small percentage. But even if you take 
a small percentage of the amount of losses of separation that 
will be recorded automatically every day by TARP, the number is 
going to jump up. We don't know how much. But it is imperative 
that a baseline is generated after TARP has been implemented 
and settles down so that we get an idea of just what is the 
norm, what is the baseline for the total number of yearly 
operational errors. And only then do I think we can use that as 
a performance measure.
    Mr. Costello. My last question for you, Mr. Guzzetti. You 
cited that in 2010 there was a misinterpretation of arrival 
waivers in Southern California TRACON as a factor in 
contributing to the statistical spike in operational errors. 
Can you explain what actually happened and how it impacted the 
operational error statistic?
    Mr. Guzzetti. Yes, Congressman Costello. In early 2010 in 
the Los Angeles region the controllers there, Southern 
California TRACON, were bringing airplanes into LAX as well as 
Hawthorne. Hawthorne had a runway that was close to LAX and 
they were kind of treating it as three parallel runways in 
terms of routing these airplanes in there.
    The Southern California TRACON was using this procedure for 
many years. They felt it was safe. However, FAA's AOV ATC 
oversight organization came in and said, ``You know what? We 
don't think this is safe. We think there is a loss of 
separation here.'' And they made them go back 45 days, which is 
how long they keep recorded radar data, and they found that 147 
losses of separation as a result of this approach procedure 
should be deemed to be operational errors and they added that 
to the count. That accounted for about 23 percent of that spike 
that I alluded to between 2009 and 2010.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I had two conflicting 
meetings, so I missed much of the testimony, but I appreciate 
the witnesses' contribution.
    Ms. Gilligan, I am told that the FAA is behind in issuing 
the final rule for pilot qualifications. What is the status of 
this rulemaking effort?
    Ms. Gilligan. Yes, Congressman. We did issue that rule. It 
is currently out for comment. The comment period will close at 
the end of this month and then we will work very quickly to try 
to get this to final rule. As you know, under the statute, the 
requirement for 1,500 hours and for all pilots to have an ATP 
will go into effect in August of 2013, so we want our rule to 
be in place by that same time.
    Mr. Coble. Thank you. Furthermore, I am told that the FAA 
is working to refine its inspector staffing model to more 
effectively identify the number of inspectors needed and where 
they should be placed to address the greatest safety risks. 
What is the status of this effort, Ms. Gilligan?
    Ms. Gilligan. That model, sir, has been in use actually 
over the last two budget cycles, so we have been making some 
use of the model. But we are trying to refine the data that 
goes into it. The way we set up the model originally, we 
collected data from subject matter experts, inspectors out in 
the field, about what they do and how often they do it. But we 
do think there can be some refinement brought to that. So with 
each year we are learning more about how to really try to 
calculate what our future need will be based on our past 
experience, which is really how we have set up the model.
    So, again, we have used it as we have developed our budget 
requests for the last couple of fiscal years, but we are just 
trying to make it as tight as we can.
    Mr. Coble. I thank you.
    Mr. Guzzetti, you may have touched on this, but let me ask 
Dr. Dillingham a question. Doctor, what are the causes of 
runway incursions and what has the FAA done to mitigate 
incursion risks?
    Mr. Dillingham. Thank you, Mr. Coble. We have looked at it 
over the last decade, and there are three principal causes for 
runway incursions. One is failure to comply with ATC 
instructions. Another one is what is referred to as lack of 
situational awareness. Oftentimes if a pilot is unfamiliar with 
the aircraft or with the airport in fact, you can in fact lose 
your place and cause a runway incursion. And then the other 
one, the other factor is just not conforming to standard 
operating procedures.
    So those are the three factors. And FAA has taken a myriad 
of actions to address this issue, including updating the 
taxiway and runway markings, putting in technologies like 
runway lights to indicate when a runway is in use. They have 
done a number of things in terms of training of pilots, 
controllers.
    So they have done, as I said, a myriad of things to address 
these things, but they still occur, and part of it is it is a 
learning experience, and also the human element in it means 
that you are not going to get all of them out down to zero. But 
the effort is being made.
    Mr. Coble. Thank you, sir. Thank you, ladies and gentlemen 
for being with us.
    Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Mr. Capuano, any questions?
    Mr. Capuano. Thank you, Mr. Chairman. I am sorry I was a 
little late. I had other things I had to do so I didn't hear 
your testimony. I have reviewed it. And also, I am kind of a 
simple guy. The chairman and the ranking member do a great job 
on the details and the technicalities. I am a pretty simple 
guy. I flew down here, flying home hopefully Friday. My wife 
and her family are currently on a plane.
    I just want to know a really simple thing. I think really 
what America wants to know is just one simple thing, and I 
would like to hear from each of you.
    Ms. Gilligan, is it safe to fly?
    Ms. Gilligan. Mr. Capuano, I can assure you that everyone 
at FAA and everyone in this industry works every day to assure 
that it is as safe as it can be. I think our record 
demonstrates that we have made that commitment, and that we are 
continuing to meet it. I think as the chairman and Mr. Costello 
identified early on, we are not resting on those laurels 
though.
    Mr. Capuano. No, I respect everybody's attempt to get to 
zero. We all--everybody wants to do that. But basically, you 
fly, you family flies?
    Ms. Gilligan. Of course.
    Mr. Capuano. You recommend to everybody you know that 
flying is safe.
    Ms. Gilligan. We wish you could fly to the supermarket 
because it is safer than lots of other modes of transportation.
    Mr. Capuano. I could carry more groceries, too. Mr. 
Grizzle, is it safe to fly? Do you recommend? Do you recommend 
to your family to?
    Mr. Grizzle. Sir, it is extremely safe. In fact, when 
people ask me what is the safest airport to fly out of, I say 
the one closest to your home. Because once you get on the 
airplane you are in one of the safest spots you can be in your 
entire day.
    Mr. Capuano. Thank you. Mr. Guzzetti?
    Mr. Guzzetti. I would concur that it is safe to fly. As we 
have all indicated in our testimony, the United States has the 
safest air transportation system in the world. However, there 
is always room for improvement. I am a pilot myself. I fly 
airplanes myself, as well as take my family on airplanes. But I 
also recognize as a former accident investigator and as an 
aeronautical engineer, that there is always room for 
improvement and the key to improvement is constantly remaining 
vigilant and collecting data.
    Mr. Capuano. Mr. Dillingham, the same question.
    Mr. Dillingham. Yes, I concur that it is safe to fly. Some 
aspects of flying are safer than others. I think there is 
beginning to be a consensus that the most dangerous part of the 
flight is when the wheels are still on the ground.
    Mr. Capuano. And I thank you, ladies and gentlemen. Now, 
obviously, I agree with that, but you are the professionals. 
You are the experts. I am not. And the truth is, most 
Americans, they don't understand half of the acronyms you use. 
I struggle to keep up with some of them myself. And the truth 
is, I understand some--I also understand that accidents happen, 
you know, sometimes they are mechanical, and sometimes they are 
human error, and it happens. And I really, I will tell you 
unequivocally, that I really respect the job that all of you do 
to try to get that to zero. You are pretty darn close to zero, 
if you want the truth, from everything I know, and as a flying 
person myself, I want to thank you for that, and thank you for 
your testimony today.
    Mr. Petri. Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. Thank you all for 
being here today. I appreciate the line of questioning of my 
colleague from Massachusetts, because I have been telling my 
children for the last 15 years when we go to fly somewhere, 
they are concerned about flying and safety, and I always tell 
them the most dangerous part of the trip is getting to the 
airport. So I appreciate that. My 20-year-old son, I will take 
the testimony back and he will finally believe they me that I 
know something--what I am talking about.
    Ms. Gilligan, I want to commend you on the ruling. I think 
it was the absolutely the right way to go, taking into what you 
took into consideration, and the question I have is, isn't it--
isn't it true that cargo carriers and passengers are vastly 
different models the systems operate under? Although the 
fatigue can have the same reaction, the fact is they operate 
differently. Can you talk a little bit about that, what you 
went through and what you found as you came up to make the 
ruling?
    Ms. Gilligan. Sure. Yes, Congressman, it is accurate that 
the model for cargo is very different from the passenger 
carrying model. Having said that though, as you point out, 
fatigue affects all of us the same way. So we do think that 
there are elements in our new rule that could be very 
beneficial to the cargo industry. In fact, we did take into 
account in the rule that oftentimes pilots are given rests 
after they have flown into a hub airport, while boxes are being 
moved they are given an opportunity for rest, and we would 
allow cargo operators to take credit for that additional rest, 
for example, under the new rule. We also have----
    Mr. Shuster. How long a time could that last?
    Ms. Gilligan. I believe in the rule it was credit for up to 
a 4-hour rest period, and it would be 3 to 4 hours of credit, 
so for additional flight time after that rest period.
    Mr. Shuster. So a pretty significant nap?
    Ms. Gilligan. Yes, because that is really how the industry 
works right now. As I think you know, the model is the aircraft 
fly into a hub location, packages are sorted for quite a period 
of time, and then the flights are taken out. The pilots, during 
that in-between time, can get a substantial amount of rest that 
can allow them then to continue to fly for a longer period of 
time after that rest.
    So we did try to accommodate that in the new rule. And that 
is why the administrator and the secretary have really 
encouraged cargo operators to opt into the new rule, although 
we do did not require that they be covered by the rule.
    Mr. Shuster. And in your analysis, it failed the cost-
benefit analysis, as you went through. Can you talk a little 
bit about that?
    Ms. Gilligan. Yes, sir. As you mentioned in your opening 
statement, we look at the cost benefit for the full proposal, 
but we do look at it as it would affect particular segments of 
the industry, which is required through the Executive order. 
When we looked at the immediate impacts or the cost impacts for 
the cargo operators, the cost for implementing the new flight 
duty and rest rules was substantially higher than the benefits 
that we could quantify.
    Mr. Shuster. Right.
    Ms. Gilligan. We do believe there is value in reducing 
fatigue, but it is sometimes hard to quantify that, and for 
those reasons we did not keep the cargo community in the rule.
    Mr. Shuster. All right, so in your view, your expert 
opinion, has safety been compromised in any way, shape, or form 
under this rule?
    Ms. Gilligan. The framework that we currently have in place 
that the cargo operators will continue to operate under we 
believe sets an appropriate level of safety. We do think 
improvements will be made for those that will move into the new 
rule, and we will continue to work with the cargo operators as 
they implement their fatigue risk management plans to make sure 
they are analyzing their own schedules to see if there is risk 
and to see that they mitigate it.
    Mr. Shuster. All right. Well, thank you very much and I 
yield back, Mr. Chairman.
    Mr. Petri. Mr. Boswell, do you have any questions? Ms. 
Johnson?
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. 
Let me apologize for being late. This committee meeting started 
while I was in another meeting. Let me preface my remarks by 
simply--my questions by simply thanking the witnesses, and 
thanking them for being a part of the safety, and I want to 
especially thank Dr. Dillingham, who I have seen come before 
this committee year after year after year, and his opinions and 
findings have never been questioned. And I think that speaks 
well for his work.
    I truly believe that the airline industry is safe. For 20 
years I have gone back and forth almost every weekend. And even 
though I have landed places other than where I was supposed to 
land, it was safe, and that is much appreciated. What I would 
like to pose for the witnesses is, what is it we need to do to 
keep it safe? Where are we in NextGen? Where are we in 
technology, and what may be the threats?
    I am sorry I didn't hear your testimony earlier.
    Ms. Gilligan. Congresswoman, actually, where we are 
focused, working with industry, is on trying to understand what 
are mistakes that may be happening in the system today that 
haven't manifested themselves as an incident or an accident, 
but where we can intervene in time to change training or 
procedures or processes so that those mistakes are what we call 
captured so they don't cause real risk in the system.
    And that is really, I think where as an industry we are 
focused, on trying to understand what can we learn from 
everyday operations that let us make the system constantly 
safer. I think we are making good progress in understanding how 
to analyze the data, identify risks, and put in place 
mitigations.
    Mr. Grizzle. And let me speak to the NextGen implications 
on safety. It does, in fact, have a significant impact on 
improving safety. Let me identify three ways, recognizing that 
most of our safety issues are, in fact, human error issues. 
NextGen provides more data to both controllers and pilots so 
they will have more information for making the decisions that 
they need to make.
    There are also tools that substantially reduce the 
opportunity for human error, for example, in communicating 
route changes which will be done in the fully implemented 
NextGen world completely digitally and without having to rely 
upon voice communications.
    The third area is that, because NextGen expedites the route 
of flight of aircraft, it causes fewer route changes that need 
to be done in the first place. And so in those three areas, 
particularly, it will be very beneficial.
    Mr. Guzzetti. Congresswoman Johnson, the Inspector 
General's office, our office, believes that there are several 
areas that FAA could continue to work to improve safety. One of 
them is the issue of what we have been discussing in regards to 
operational errors. The risk of loss of life when two airplanes 
collide on the ground or in the air is low, but if it does 
occur, there will be a catastrophic loss of life. So that is 
why there is a lot of concern about tracking these near misses.
    Secondly, the inspector workforce, the risk-based approach, 
is a positive step, but it is a work in progress. There are 
some problems with the fact that it is not being--it is not 
robust enough at this point.
    And lastly, the things that came out of the tragic Colgan 
accident in regards to human elements in aviation, the pilot 
training, knowing which pilots airlines are hiring and how they 
are being trained, we have identified issues in that regard 
which is contained in our testimony.
    And then I would like to also mention that our office has a 
large body of work in regards to NextGen, and I would agree 
with Mr. Grizzle that the potential for NextGen to make things 
more efficient and more safe is absolutely there. However, 
NextGen is experiencing some management problems, contracting 
problems, and delay problems. This is a new technology and the 
transition will be key to ensure that things are being kept 
safe.
    Ms. Johnson of Texas. Thank you.
    Mr. Dillingham. Thank you, Congresswoman Johnson, for the 
kind words, and I will take that back to my staff as well. I 
think what the FAA representative said, we agree with that, 
that NextGen is going to be a positive in terms of improving 
safety. I think the risk management that FAA is doing now is 
also going to be a positive. And as you said, there is always 
going to be the human element involved in this. But if we look 
from the late 1990s to where we are now in our aviation safety 
record, people keep saying it over and over again, that we 
indeed have the safest system in the world. I think FAA 
recognizes, and we will be monitoring to ensure that they 
recognize where the issues are, and they are about the business 
of dealing with those issues each and every day. So we would 
recommend that they in fact do expedite the technology as well 
as keep up the education and the regulatory oversight that they 
currently undertake.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman. I 
yield back.
    Mr. Petri. Thank you. Let's see. Mr. Cravaack, do you have 
a question?
    Mr. Cravaack. Thank you, Mr. Chairman, sorry. I appreciate 
the testimony today on obviously something that is near and 
dear to my heart. And I would have to, as an airline pilot with 
many hours, I believe we do have fantastic safe skies and 
professionals that want to make sure that our skies remain safe 
and will do everything to do that.
    But I if I would, I would just like to ask a couple of 
questions. Ms. Gilligan, if you could tell me, how did the 
carve-out for cargo pilots actually occur, because going up to 
the President, everything is, you know, is one level of duty 
time, flight-time, duty-time rules. And then there was a carve-
out for cargo pilots. How did that actually occur?
    Ms. Gilligan. Congressman, as you point out, the initial 
proposal applied to all aspects of the industry. One of the 
things we were looking to accomplish was to have a single 
framework for flight duty and rest to replace three or four 
models that we have now, which have come into place over many 
years as industry grew and as the capabilities and distances 
airplanes could fly increased. So we did have a single 
proposal. But as I said in response to Congressman Shuster, we 
are also required to do an analysis of the cost and benefits in 
different elements of the community, and when we looked at the 
cost for the cargo community, the costs were quite high and the 
quantifiable benefits were substantially lower than those 
costs. And so we always look to try to assure that we are 
getting a comparable level of societal benefits to the costs 
that any rulemaking would drive, and in this case we could not 
reach that balance. Rather than hold up the whole rule to try 
to come up with a new proposal, the rule would go forward for 
the passenger carrying flights because we could demonstrate 
strong societal benefits from those costs, that we would not 
include cargo at this time but that we would work separately, 
as the Secretary indicated, to encourage the cargo operators to 
opt into the new framework which is based on the science of 
fatigue in a way that our other rules really don't reflect.
    Mr. Cravaack. So basically it was a financial decision, 
correct?
    Ms. Gilligan. Part of the rulemaking analysis is to look at 
the cost and benefit that the requirement will have.
    Mr. Cravaack. So the data associated with the extricating 
rhythm of the pilots and flying and things like that was set 
aside for the financial aspect of it?
    Ms. Gilligan. Well, no, sir. The way we look at determining 
the benefits is to look at past accidents and incidents and 
what contributed to them. What the data indicated was that at 
this point the cargo accident rate does not demonstrate fatigue 
at a level that required us to change the standards. That is 
kind of the easiest way to describe it. As has been----
    Mr. Cravaack. Were you looking at it as a percentage 
because there is a lot less cargo aircraft in the air than 
there are passenger aircraft?
    Ms. Gilligan. It actually has to do with the econometric 
model that is used which takes a cost for what society is 
willing to pay to protect a life. And there are many more 
passengers, or lives involved in a passenger aircraft than in a 
cargo aircraft.
    Mr. Cravaack. Could you repeat what you just said?
    Ms. Gilligan. That the econometric model that is used by 
all agencies that do regulations is to look at what society is 
willing to pay to protect the value of life.
    Mr. Cravaack. That is what I thought you said. OK. Thank 
you. I appreciate that testimony. A little chilling, but I 
appreciate it.
    Mr. Grizzle, if you don't mind, both the IG and the GAO 
have indicated an improved reporting process that cannot alone 
explain the increase of operational errors. What does the FAA 
believe are the other contributing factors to increase how the 
FAA is addressing those factors?
    Mr. Grizzle. The most important action we are taking, sir, 
is making sure that we harvest all of the information from the 
voluntary disclosures in order to identify safety risk and then 
be sure that we convert that information into actionable items. 
Through this data we have identified 5 top risk areas, and to 
address those 5 top risk areas, we have developed 22 separate 
risk mitigating procedures that we are in the process of 
implementing and intend to have implemented by the end of this 
year.
    Mr. Cravaack. OK, if I can go back to you, Ms. Gilligan, 
real quick. Segments of the industry are very concerned about 
the public disclosure of the safety management system that is 
being collected and protecting that data. How do you propose to 
address this problem?
    Ms. Gilligan. Well, Congressman, actually the 
reauthorization bill will give us some additional authority to 
be certain that safety data is protected and only used to 
improve the safety of the system. So again, as we go forward 
with our safety management system rule, we will be looking to 
put in place those kinds of protections very much based on the 
work of this committee, which provided the basis for that in 
the reauthorization.
    Mr. Cravaack. I think one of the most valuable inputs that 
you have are pilots, you know, and air traffic controllers need 
to voluntarily submit suggestions without any fear of 
retribution, because that is where the answers are going to 
come from.
    I am over my time, sir, and I yield back.
    Mr. Petri. Thank you. Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you. One final question 
for Ms. Gilligan. As you know, in the 2010 Safety Act, for good 
reason, I believe, we put in a requirement for a database for 
centralized pilot records. You mentioned in your written 
testimony that there are several technical challenges 
associated with implementing that section of the act. Can you 
detail those for us for the record?
    Ms. Gilligan. Yes, sir. As we mentioned in the testimony, 
there are some issues around exactly what records need to be 
collected and so we are trying to get common understanding 
throughout the industry of who and what we should be saving and 
what we should be collecting.
    Secondly, there are two big challenges. One is the IT 
system required, getting the database actually put together, 
and we are trying to prototype that this summer which will go a 
long way to helping us understand how the technology of it 
would work.
    But I think the biggest challenge for us will be the actual 
ability to integrate records that are in paper, on microfiche, 
on mimeograph, some of them automated in the last more recent 
years, but for pilot historic records. There are pilots who 
have been in the FAA system for 20, 30, 40 years, and there are 
a tremendous number of records, most of them starkly paper, 
that will all have to be somehow incorporated into the system. 
So now we are trying to understand how we can do that 
effectively and efficiently.
    Mr. Costello. So what can we expect from a planning 
standpoint? Is there a plan to do this?
    Ms. Gilligan. We do have some milestones. Unfortunately, we 
have such a demand in our rulemaking program right now that 
because of the challenges technically, we aren't really ready 
to start the rulemaking process. Again, we are hopeful with the 
prototyping this summer that we will better really understand 
what we are up against, and based on that, we will be able to 
come up with a more realistic schedule.
    Mr. Costello. Mr. Chairman, thank you. And again, I thank 
our witnesses for being here and I especially thank the Colgan 
families for being here as well.
    Mr. Petri. Thank you. I have one question. I don't know 
quite who to address it to, but we have been talking about a 
nearly perfect record of safety, but arise in some reported 
incidents though at a very small level. Everyone is aware, I 
think who follows it, that the aviation industry has 
traditionally for many years and continues to be, aspects of 
it, under financial pressure. American Airlines is in 
bankruptcy right now, Pinnacle that owned Colgan, which did 
have an accident, is in bankruptcy.
    Is there any correlation or relationship at all or are 
there safeguards to protect from people cutting corners because 
of their financial situation?
    Ms. Gilligan. Mr. Chairman, if I may start. I am sure 
others will have opinions. I think that it is clear throughout 
the industry that an investment in safety is an important 
business investment. I think there is broad understanding that 
a fatal accident has a tremendously negative impact, not just 
on the operator involved but throughout the industry. So what 
we see from the FAA is continued investment in safety systems, 
like the safety management system, like data systems, so that 
carriers understand what is happening within their system.
    At the same time, within FAA, we have always had a program 
where inspectors enhance their oversight when there are 
financial problems. So as we went through mergers we had the 
two teams that continued to oversee, for example, United and 
Continental, as they operated, and a third team that monitored 
and managed the merger so that we had good eyes on everything 
that was happening because there is some risk, obviously, that 
some misstep or some human error can occur while you are making 
those kinds of changes. The same with bankruptcy. As soon as a 
carrier announces that they are going into bankruptcy, we 
enhance our oversight system to focus on evaluating the changes 
they will have to make as they downsize or as they furlough, or 
whatever the effects of bankruptcy may be. And I think those 
two sides, the industry's commitment to aviation safety as a 
good business practice with heightened FAA oversight when there 
is financial problems, gives as you good balance to assure the 
levels of safety continue.
    Mr. Guzzetti. Chairman Petri, if I may, our office is 
completing an audit in regards to code share that I believe the 
subcommittee requested, and one of the aspects of the three 
things we are looking at is whether safety is handled any 
differently with mainline carriers as opposed to the code-
sharing partners. And you are correct about the economic 
situation. I think most of the code-share airlines' revenues 
are from the mainline carrier which they utilize to feed the 
main lines. But yet our audit is finding that FAA really 
doesn't have a requirement to look at those code-share 
agreements. And perhaps there could be some incentives in those 
agreements, or aspects that could impact safety. That is one of 
the things our audit is looking at.
    Mr. Petri. Thank you. Again, thank you all for your 
statements, and for your conscientious response to the 
questions we have asked. This concludes the first panel, and we 
will now turn to the second panel. And as it is taking its 
place, as they are taking their places, let me introduce them 
to you. The panel consists Mr. Tom Hendricks, who is the senior 
vice president for safety, security and operations, Airlines 
for America; Mr. Scott Foose, who is senior vice president, 
operations and safety, Regional Airline Association; Captain 
Sean Cassidy, first vice president of the Air Line Pilots 
Association; and Mr. Gary M. Fortner, who is vice president of 
quality control and engineering, Fortner Engineering, on behalf 
of the Aeronautical Repair Station Association.
    I would like to express all of our thanks for you gentlemen 
joining us today and participating in this panel, and for the 
effort that you and your associates have exerted to prepare the 
statements that you have submitted.
    And as you know, we would invite you to summarize those, in 
approximately 5 minutes, beginning with Mr. Hendricks.

  TESTIMONY OF THOMAS L. HENDRICKS, SENIOR VICE PRESIDENT FOR 
 SAFETY, SECURITY AND OPERATIONS, AIRLINES FOR AMERICA; SCOTT 
 FOOSE, SENIOR VICE PRESIDENT, OPERATIONS AND SAFETY, REGIONAL 
     AIRLINE ASSOCIATION; CAPTAIN SEAN CASSIDY, FIRST VICE 
PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL; AND GARY 
M. FORTNER, VICE PRESIDENT OF QUALITY CONTROL AND ENGINEERING, 
 FORTNER ENGINEERING AND MANUFACTURING, INC., ON BEHALF OF THE 
            AERONAUTICAL REPAIR STATION ASSOCIATION

    Mr. Hendricks. Chairman Petri, Ranking Member Costello, 
members of the subcommittee, thank you for inviting A4A to 
appear at this important and timely hearing. At the outset, I 
want to express our thanks to the committee for its leadership 
in aviation safety and its support of the initiatives that I 
will discuss this morning, many of which were addressed in the 
recently enacted FAA Modernization Reform Act of 2012.
    Of course, we also appreciate the efforts of the Federal 
Aviation Administration and the National Transportation Safety 
Board. Safety underpins every aspect of airline operations. The 
remarkable safety record of airlines that are members of A4A, 
demonstrates their unflagging commitment to fulfilling that 
responsibility. As a former airline captain I have repeatedly 
witnessed that commitment.
    The results are extraordinary. This is the safest era in 
our history. We are the safest form of transportation on the 
planet, bar none. This safety record is neither random nor 
unintended. We have achieved levels of aviation safety that 
other industries and foreign civil aviation authorities envy. 
While our commitment to safety is unchanging, the way we pursue 
safety has evolved and transformed over time as our 
understanding of human factors has grown, technology has 
advanced and our ability to capture and utilize data has 
expanded. This transformation has been indispensable in 
producing our extraordinary safety record. In simplest terms, 
we operate at a higher level of safety because we have become 
much better at identifying and managing risk.
    We haven't conquered risk. No one can promise that in 
aviation, but airlines have introduced throughout their 
operations very potent data-driven risk assessment systems. 
These systems are tailored to an airline's operations. However, 
there is a common methodology to them. Hazards are identified 
and rigorously analyzed, and risk mitigation measures are 
carefully thought out and implemented.
    Risk assessment has been used in aviation for many years. 
What has changed since the 1990s is the volume and 
accessibility of operational data that can be applied to safety 
issues. Airline safety professionals work in an information-
rich environment. That means that we now rely on data-driven 
analysis, which frequently involves the combined scrutiny of 
the FAA, employees and management. This yields a high-
definition picture, if you will, of operating environments and 
transient events and thus more refined risk assessments. And as 
the subcommittee knows, some of the most effective of these 
safety data programs are voluntary. They are very tangible 
manifestations of the industry's willingness to explore new 
means and develop new relationships within the aviation 
community to improve safety.
    In short, a cultural shift has occurred that promotes and 
enables a higher level of safety. Data-based programs enable us 
to identify emerging patterns and properly deploy focused 
resources, and when that action is taken also has changed over 
the years. Today, unlike in past decades, there has been 
increasing emphasis on initiating change rather than simply 
reacting to events. That is proactive safety. This disciplined 
approach, going where the data take us and acting accordingly, 
has significantly advanced safety. It produces the most 
responsive and effective results, and it facilitates the most 
efficient deployment of finite resources in making necessary 
changes. That discipline gives us the confidence to undertake 
change when warranted, but it also gives us the ability to 
recognize when change is uncalled for and to challenge 
assumptions no matter how widely they may be embraced. Not 
every new idea is an improvement or free from unintended 
consequences.
    The FAA's proposed rule on pilot certification and 
qualification requirements, for example, concerns us for these 
reasons.
    I want to inject some words of caution. All who are 
involved in aviation safety need to realize the importance of 
sticking to the disciplined approach that I have outlined. We 
must resist the temptation to tinker with the safety system 
lest we disturb what we have accomplished and the benefits of 
that to our passengers and crewmembers.
    Expertise and rigor should guide us. Going forward, we have 
the tools to foster safety enhancements. That is because 
today's airline safety culture in the United States is 
characterized by, first, a common understanding that safety is 
the foundation of our business, second, robust communication 
within airlines, including with employees and among industry 
and Government stakeholders based on mutual trust, and finally, 
a recognition that safety issue precursors can be identified 
and effective preventative actions taken.
    When we look beyond our borders, the situation appears more 
mixed. Many foreign airlines and civil aviation authorities 
have adopted data-driven approaches to safety. The maturity of 
those systems, however, can vary. Because of that we urge the 
U.S. Government to continue its efforts at the International 
Civil Aviation Organization and in other venues to expand use 
of safety data systems worldwide. This advocacy helps not only 
foreign airlines, but also American citizens who fly on them.
    We look forward to continuing to work with the subcommittee 
on these matters, and I would be happy to answer any questions 
you might have.
    Mr. Petri. Thank you. Mr. Foose.
    Mr. Foose. Good morning. Chairman Petri, Ranking Member 
Costello, members of the subcommittee, thank you for the 
invitation to testify at this hearing. Three years ago RAA 
testified before your committee after a fatal accident in order 
to discuss our members' commitment to safety. At that time, we 
outlined several important safety initiatives already in place. 
We shared our plans to go even further. Today I am here to talk 
to you about what we have been doing since then.
    While our safety work has been both broad and deep and is 
discussed more fully in our written statement, I will focus my 
testimony on four areas in particular: Safety information 
sharing, voluntary safety programs, pilot fatigue, first 
officer qualifications.
    All of our members participate in safety committees 
established by code-sharing airline families. They are also 
active participants in the InfoShare Program cosponsored by the 
FAA and the airlines. In fact, at our recent InfoShare meetings 
half of the attendees and briefings were from regional 
airlines. Safety information is being shared by many means that 
now transcend many boundaries. Regional airlines are not only 
committed participants, but they are also taking leadership 
roles.
    RAA members have been also active, achieved extremely high 
participation levels, in a list of gold standard voluntary 
safety programs. In fact, RAA members have the highest levels 
of participation among all of part 121 carriers in each of the 
key FAA-supported voluntary safety programs, including ASAP, 
FOQA, AQP and safety management systems.
    The majority of carriers transitioning to advance 
qualification programs for pilot training were regionals. While 
carriers of small fleets cannot be expected to participate in 
AQP, RAA's members have made the transition in significant 
numbers. While 25 percent of all 121 carriers trained their 
pilots under AQP, 66 percent of RAA members have that program.
    Also, the large majority of RAA's part 121 members have 
flight operations quality assurance programs in place. This is 
all the more impressive knowing that RAA's members have 
significant data collection equipment obstacles to overcome in 
order to participate.
    I want to express my appreciation to our pilots and air 
associations. They have been key partners and share the credit 
in this accomplishment.
    Another significant milestone for the airline industry was 
marked when the flight and duty time final rule was published 
in December. For the first time we will use science to avoid 
and mitigate fatigue in the cockpit. In 2009, industry 
recognized there was a gap in the available science with regard 
to workload fatigue. RAA took action, initiating an independent 
ground-breaking research study to fill this gap. The goal of 
this study is simple. We want to better understand the 
fatiguing effects of multisegment operations on pilots so we 
can incorporate what we have learned into our training, our 
procedures, and our culture. RAA has taken a leading role in 
fatigue research and will continue to work hard to ensure the 
highest levels of safety in this area.
    Finally, I would like to briefly discuss the proposed pilot 
qualifications rule. But first I want to address a recent 
allegation that regional airlines have no plan in place to 
comply. This is far from the case. In fact, RAA members have 
been very busy developing their transition programs. Several 
programs have been approved and members have begun to 
transition their first officers. We are preparing our public 
comments in which we will urge the FAA to consider the valuable 
conclusions reached by the First Officer Qualifications 
Aviation Rulemaking Committee in formulating the rule. We also 
express our concern that unless the new rule recognizes the 
value and experience that structured training programs provide, 
the burden will now shift to tomorrow's pilots.
    The implication here is not diminished safety, but 
diminished incentive for students to pursue training and 
diminished service to smaller communities. The potential 
availability of new pilots could jeopardize scheduled service 
to dozens of communities. It is estimated that an annual 
shortfall of approximately 2,300 pilots could translate to a 
loss of service to 75 communities. If we do not take advantage 
of this opportunity, we will be encouraging the next generation 
of pilots to merely build hours, when what we really need is 
experience in our cockpits.
    In the 3 years since we last testified before this 
committee, our 60,000 regional airline employees have operated 
nearly 15 million flights at a pace of 13,000 flights each day. 
In fact, today is the safest period of time in commercial 
history. It is our hope that our deeds which have gone well 
beyond the rules demonstrate to you, to each of the passengers 
that we are fully committed to safe operation of each and every 
flight each day.
    This concludes my statement. I look forward to your 
questions.
    Mr. Petri. Thank you. Captain Cassidy.
    Mr. Cassidy. Good morning, Mr. Chairman, Ranking Member 
Costello, and members of the subcommittee. I am Captain Sean 
Cassidy, first vice president of the Air Line Pilots 
Association, International, and I am also its national safety 
coordinator. I represent more than 53,000 professional airline 
pilots who fly for 37 airlines both in the United States and 
Canada. ALPA is not only the world's largest pilot union, We 
are also the world's largest nongovernmental aviation safety 
organization. I am honored to be here and would like to offer 
our perspective on where the U.S. airline industry stands, 
where we need to go in four critical areas of aviation safety.
    First, although ALPA believes our industry has made good 
progress in taking on pilot fatigue, critical work remains to 
be done to achieve one level of safety for all airline 
operations, a concept that has formed the foundation of ALPA's 
safety work for many years. All pilots are human and we 
experience fatigue in the same way regardless of whether we are 
passengers or we have cargo in our aircraft. Despite this, new 
science-based fatigue regulations apply only to pilots who fly 
passengers and not those who fly cargo. Leaving all cargo 
pilots out of the regulations is a serious safety concern.
    ALPA thanks your colleagues, Representative Chip Cravaack 
and Representative Tim Bishop, for introducing the Safe Skies 
Act of 2012, which would apply the fatigue rules to all airline 
operations. We urge all members of this committee to cosponsor 
H.R. 4350 and to swiftly report out the Safe Skies Act of 2012 
to help achieve one level of safety across the industry.
    I would also like to applaud the families from Colgan 3407 
who not only have been staunch supporters for H.R. 5900, but 
also the Safe Skies Act as well.
    Second, the screening, selection, training, qualification, 
and continued professional development of a pilot are also key 
components of maintaining the highest levels of safety. While 
ALPA is encouraged by the rulemaking proposals both for 
revising training standards and requirements for new first 
officers and for implementing safety management systems at 
airlines, the job is clearly not finished. Of particular 
concern to airline pilots is the new regulations which seek to 
ensure that relevant experiences obtained before pilots begin 
airline service, they must not set the stage for unintended 
consequences of rendering an active airline line pilot suddenly 
ineligible to continue his or her employment. Fairness and 
common sense dictate that efforts to ensure relevant experience 
should not inadvertently take that experience out of the 
cockpit.
    New regulations must include a clear path to follow so 
currently employed airline pilots can continue to fly and are 
able to achieve full compliance with requirements that were 
created after their employment began. In addition, ALPA has 
long emphasized the value of professional development, command 
training, and mentoring. As the U.S. airline industry has 
evolved, opportunities have diminished for new pilots to gain 
experience through years of flying under the command of more 
seasoned aviators. As a result, the mentoring command training 
of professional development that once occurred organically must 
be replaced with formal mechanisms to develop these skills.
    In the Airline Safety and Federal Aviation Administration 
Act of 2010, Congress rightly identified the need for airlines 
to provide specific command training courses for new captains. 
We advocate that new captains receive training to reinforce 
effective communication, leadership, and conflict resolution.
    On a related issue, while mentoring does not replace 
proficiency training, it provides an excellent supplement to 
it. While informal mentoring can often take place if an airline 
safety culture fosters the opportunity, mentoring should also 
be formalized as a standard part of a pilot's professional 
development. In all of these areas, mentoring, leadership, and 
professional development, the changes will take time to fully 
implement and mature. Our industry must act now to make these 
enhancements a reality.
    Third, safety management systems which provide the NextGen 
blueprint for aviation safety, both on the ground and in the 
air, have already proven to be extremely effective as 
demonstrated by our Canadian neighbors. A key principle of SMS 
is to all members of an organization to identify hazards 
without fear of retribution. The ability to capitalize on 
frontline employees' firsthand knowledge is a critical element 
in maintaining safest possible operations. ALPA is encouraged 
that the Federal Aviation Administration appears to be on 
schedule to publish a final SMS rule this summer.
    Finally, and especially important in the context of SMS is 
the absolute priority that our industry must place on the 
protection of safety data. The proven success of voluntary 
safety programs hinges on the strength of the data collected. 
Individuals provide this data based on the expectation that he 
or she will be respected as acting to enhance safety and that 
information will not be misused. Legislation should be 
considered to make certain this information is only used as 
intended and that is to advance safety.
    The pilots of ALPA commend the U.S. Aviation House 
Subcommittee for holding this hearing and allowing us to 
underscore the importance of continuing to pursue the highest 
standards in safe air transportation. Thank you.
    Mr. Petri. Thank you, Captain. Mr. Fortner.
    Mr. Fortner. Thank you. Chairman Petri, Ranking Member 
Costello, and members of the subcommittee, I thank you for the 
invitation to testify this morning.
    Incorporated in 1952, Fortner Engineering is a third-
generation family-owned company with 45 workers. My company is 
an FAA certificated repair station that specializes in the 
repair and overhaul of hydraulic aircraft components. I am 
testifying in my capacity as the senior vice president of the 
Aeronautical Repair Association, also known as ARSA. The 
efforts of ARSA's members facilitate the safe operation of 
aircraft worldwide by providing expert maintenance services for 
general and commercial aircraft. Overall, these services 
generate over $39 billion of economic activity in the United 
States and employ more than 274,000 workers in all 50 States.
    North America is a major net exporter of aviation 
maintenance services, enjoying a $2.4 billion positive trail 
balance of trade. I would like to use my time this morning to 
highlight four main points: First, for ARSA members around the 
world, good safety is good business. The basic nature of the 
aviation industry demands that safety and security be the top 
priority for our member companies. Operators and airlines will 
not do business with companies that put their passengers and 
valuable business assets at risk.
    Aviation safety does not begin and end with the FAA or any 
other regulatory body. Safety is the responsibility of every 
aviation maintenance employee performing work on behalf of an 
owner or operator, a certificated repair station, air carrier, 
or other aviation business. Government inspectors will never be 
able to oversee each mechanic at every facility at all times. 
The industry has the ultimate obligation, responsibility, and 
authority to ensure that the civil aviation system is safe and 
repair stations are filling that responsibility despite the 
FAA's limited oversight resources.
    My second point is that foreign repair stations are an 
essential element of the global aviation system to help ensure 
the safety of travelers worldwide. FAA certificated foreign 
repair stations are subject to the same safety centers as FAA 
domestic part 145 certificate holders. The International 
Convention of Civil Aviation of 1944 and ICAO standards require 
that the country in which the aircraft is registered oversee 
the maintenance performed on that aircraft and all related 
components regardless of whether work was performed. 
Consequently, maintenance on a U.S. registered aircraft must be 
performed by an FAA certificated maintenance provider. 
Similarly, when an aircraft of foreign registry requires 
maintenance, only a repair station certificated or validated by 
that aircraft's civil aviation authority or registry may 
perform that work.
    As far as other countries are concerned, U.S. repair 
stations are also foreign repair stations. My company has an 
EASA approval that allows us to perform work for EU registered 
aircraft. Consequently, Fortner Engineering has to ensure 
comply not only with the civil aviation authority of this 
country, but additional and different requirements of EASA. Any 
efforts to limit the ability of U.S. carriers to use foreign 
repair stations will inevitably lead to retaliation from 
foreign governments that will hurt hundreds of U.S. companies 
like mine that serve an international clientele.
    Thirdly, the long-term threat to the aviation maintenance 
industry is over-regulation and Government intrusion. Vision 
100, an FAA reauthorization law enacted in 2003, required the 
TSA to issue security rules for all aviation repair stations by 
August 2004. When TSA failed to meet that deadline, lawmakers 
demanded that security regulations be completed by August of 
2008. The penalty for failure to comply was the FAA would be 
prohibited from issuing new foreign repair station 
certificates.
    Nearly 4 years later, the TSA has still failed to issue 
final repair station security regulations, and the FAA is 
currently banned from issuing new foreign repair station 
certificates. TSA's failure to finalize repair station security 
rules is preventing aviation companies from tapping into 
rapidly expanding overseas markets, hindering job creation and 
growth at home.
    My final point is that the lack of standardization across 
FAA regional offices can significantly impact repair stations 
across the country. A situation of Fortner Engineering detailed 
in my written testimony demonstrates how overzealous regulators 
and inconsistent application of regulations impede repair 
stations with no benefit to flight safety.
    ARSA members are routinely plagued by FAA's widespread 
varying application of regulations across the country. 
Inconsistent interpretation and enforcement is frequently cited 
by ARSA members as a major problem and small businesses are 
particularly impacted by a lack of regulatory standardization 
across regions.
    In conclusion, repair stations have long been and continue 
to be a vital part of the aviation industry in our Nation's 
economy. It is no coincidence that the increased use of 
contract maintenance has coincided with the safest period in 
commercial aviation history. In the end, no governmental agency 
can guarantee aviation safety. Safety is a business of aviation 
industry companies and their employees. ARSA looks forward to 
working with Congress to ensure that legislation and 
regulations are based on our one common goal, safety.
    Mr. Petri. Thank you. Thank you all again. Mr. Hendricks, 
in your prepared statement, you talked about some of the modern 
techniques for analyzing data and improvements that were being 
made, and you cautioned against, quote/unquote, ``tinkering'' 
with the safety system. And we are always looking for 
improvements, but we are not looking for mindless tinkering. I 
guess--so could you discuss what it is that you would fear from 
what--expand on the word ``tinkering'' and the consequences of 
that?
    Mr. Hendricks. Sure. Certainly. As I tried to reflect in my 
statement, the results we have been able to achieve are 
extraordinary and unprecedented and we have largely done this 
through these very robust voluntary reporting mechanisms that 
are very much a partnership between airlines, our regulator the 
FAA, and our employees, and it provides us with an amount of 
data that 10 years ago was unthinkable. We are able to do very 
deep analysis of this data that has been protected by the 
Congress from intrusion, and we are able to do analysis that 
frankly is very deep, and very compelling in terms of what 
actions we should take to enable further improvements in 
safety.
    I sit on the executive committee of the Commercial Aviation 
Safety Team which Ms. Gilligan co-chairs with Mr, Ken Hylander 
from Delta Airlines, and we routinely participate in directed 
studies, look at safety threats. We go where the data take us. 
And we are convinced that this path we are on will lead to 
further improvements and is the correct path to assure that we 
will stay on this journey that we are taking to a phenomenally 
safe system that we are currently operating.
    So we want to ensure that we stay true to the data, and 
while we will always try to determine ways to improve the 
system further, we want to ensure that we make any of those 
decisions grounded on these facts that we are able to uncover 
through this intense and very focused analysis of the data that 
we are receiving.
    Mr. Petri. Thank you. Mr. Foose, I think I know the answer 
to this, but in your testimony you talked about how you had to 
take into account experience versus flight hours.
    Mr. Foose. Correct.
    Mr. Petri. And could you explain what you--and so not just 
looking for hours. I suspect you are talking about the number 
of maneuvers you are doing, rather than just flying, well, it 
is on auto pilot hours, but could you expand on that?
    Mr. Foose. That is correct. The proposed pilot 
certification rule focuses on two areas I wanted to talk about. 
One is the additional training that is required, and we support 
that. We think there is lots of good steps that are proposed in 
there that actually in many ways have already been incorporated 
into our training programs. Our biggest concern is that the--we 
know that the Public Law of course requires 1,500 hours and an 
ATP. Our members have already taken a significant step forward 
and will meet that. All of our pilots will meet that 
requirement by August of 2013. But the FAA in their rulemaking 
activity has proposed an academic system that accommodates only 
4-year aviation degrees and also military as well, but our 
experience with the airlines, and we obviously have lots of 
experience, qualifying thousands and thousands of pilots that 
are in service today and doing so very safely. And what that 
experience tell us is that the quality of training is really 
what tell us whether that pilot really will have the skills and 
the knowledge to do his job appropriately. And when the time 
comes and he is faced with an abnormal situation, he will be 
better prepared to do that. The flight time does not 
necessarily do that, and of course in our written testimony we 
offered and example of how that occurs.
    Mr. Petri. Thank you. Captain Cassidy, one area of some 
controversy has been the different treatment of freighter 
pilots as opposed to passenger pilots, and we are told one 
explanation is that cargo pilots--actually, the data shows 
actually--fly significantly less than passenger pilots. Could 
you comment on that? Does that difference, in fact, exist, or 
do you know about anything about that?
    Mr. Cassidy. Yes, sir. Well, scheduling differences exist 
relative to the operation. You have long-haul cargo operations 
that fly tremendous distance and extended crew days with 
augmented crews and they fly intercontinental. You also have 
cargo operations that fly stage links which are just sometimes 
as little as 100 miles. So there is a tremendous variety of 
flying that gets done both on passenger and in cargo 
operations. I can speak to you from a little bit of a vantage 
of somebody who has done both, because the airline I am 
currently employed by, we actually have stand-alone cargo 
operations as well as passenger operations. And I think the 
important point is that with regard to crew fatigue issues, 
with regard to the stressors that affect you, many times I have 
actually had higher workload situations flying cargo operations 
rather than passenger ones because of the lack of additional 
crewmembers. You know, from my vantage as an airline pilot, 
fatigue is fatigue is fatigue. I know a little bit about it, as 
does Congressman Cravaack, who we both share a background both 
in military, passenger, and cargo operations, and I honestly 
cannot distinguish why there should be a difference in the way 
that you are treated based upon what resides behind the flight 
deck door.
    Mr. Petri. Thank you. Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman. Mr. Foose, you have 
testified that the regional airlines are making a lot of 
progress in developing plans to implement the ATP requirement, 
although the Inspector General, you have heard his testimony 
that their investigators visited two regional carriers and 
found out that 75 percent of their first officers do not have 
ATP certificates.
    Mr. Foose. Correct.
    Mr. Costello. And they also found out that in both cases 
that neither carrier had developed a plan to ensure that the 
first officers would meet the ATP requirement by the deadline 
of August 2013.
    So my question is, how many of your carrier members have 
developed a plan to ensure that the first officer meets the ATP 
certificates and will be able to meet the enhanced safety 
requirements by August of 2013?
    Mr. Foose. Excuse me, that is a good question and thank you 
for that. I am not sure which carriers they spoke to. In my 
conversations with our operations executive of carriers, we, as 
far as I know, all the carriers have either developed a plan or 
have completed development and submitted that to the FAA 
office. At this point in time, we have three carriers that have 
approved programs, and they have begun to transition their 
first officers.
    Given the August 2013 deadline, we would expect that all 
airlines will have their programs approved and in place and 
being executed as of July or August of this year. At that point 
all of the pilots should be--start the program, be complete by 
August of 2013.
    Mr. Costello. So three carriers have approved plans?
    Mr. Foose. Correct.
    Mr. Costello. And how many members do you have in your 
association?
    Mr. Foose. Twenty-seven, 24 of which are part 121 carriers.
    Mr. Costello. So 3 of the 27 have approved plans.
    Mr. Foose. That is correct.
    Mr. Costello. Let me ask you. Is Pinnacle one of those 
companies, which of course is the parent company for Colgan 
Air?
    Mr. Foose. Yes.
    Mr. Costello. And they are one of your members and do they 
have an approved plan?
    Mr. Foose. I do not know that, sir. I can get back to you 
on that.
    Mr. Costello. Why wouldn't you know that? Why wouldn't you 
know--if you have 27 members and you were coming here today, 
why wouldn't you have found out from your members which ones 
have approved plans, which ones do not, and which ones do not 
have even a plan in place?
    Mr. Foose. That is a good question. I, as of last week, 
when we polled our members we had three approved, but I do not 
know. I have not talked to Pinnacle since then, so I don't know 
if they have been approved since.
    Mr. Costello. How long would it take you to get a list to 
this subcommittee of the 27 members, how many have plans in 
place right now?
    Mr. Foose. We could do that very quickly, sir.
    Mr. Costello. Well, I would request that you would submit 
that to us as soon as possible.
    Mr. Foose. I would be glad to do that.
    [The information follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    
    Mr. Costello. Captain Cassidy, you have heard the regionals 
say that the proposed rule for pilot qualifications could 
affect the supply of airline pilots. You have heard that 
previously and that is the position of the regionals. How do 
you respond to that?
    Mr. Cassidy. Our association's motto is: Schedule with 
safety. And I think the determinant on whether or not there is 
going to be an excess amount of eligible pilots to fill the 
flight decks in the commercial aircraft is really dependent on 
the industry's efforts to recruit, attract, and retain 
qualified pilots. I think that taking one step beyond that, 
regardless if there exists a paucity or a surplus of pilots, I 
think that our core concern is ensuring that they are as well-
trained, as safe, as experienced, and as proficient as 
possible, which is why we are so much in favor of the recent 
legislation helping with mentoring leadership, and as well as 
stepped-up hourly qualifications.
    Mr. Costello. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Graves, do you have--oh, Mr. Shuster.
    Mr. Shuster. Thank you. Thank you, Mr. Chairman. Captain 
Cassidy, you said you have serious safety concerns with this 
new ruling, and again, based upon the evidence that has been 
put forth over the last several years, cargo has been extremely 
safe, and in fact there has been no increase with incidents 
with fatigue. You know, so where is the concern there if you 
have got an industry that continues to improve?
    Mr. Cassidy. You are correct, sir. The industry--we have--
basically, I have the pleasure of working in the transportation 
system, which is the safest in the history of the world for the 
last 10 years, and the previous 10 years preceding that was the 
next safest era of operations. So in one respect, this is a 
very high-class problem to have because we are talking about a 
very, very safe system or an even safer one.
    Now, with regard to fatigue issues and cargo, I think that 
those same issues that would serve as precursors for higher 
safety risk for cargo are identical to passenger situation. And 
I think we are just looking at the tip of the iceberg because 
we are now finally getting into scientifically based data 
collection which really determines the precursors to fatigue in 
a way that we have not done in years past.
    I was sitting right next to Secretary LaHood on December 
21st when he made the announcement of the flight-time/duty-time 
regulation, and although cargo was placed in a different 
category than passenger operations under part 117, you know, I 
think I was pretty clear when I heard him say very emphatically 
that even that cargo is not regulated on the side of 117 with 
the passengers, nevertheless it is absolutely the right thing 
to do.
    Mr. Shuster. Well, look, I agree 100 percent with the 
passenger side of it, but, you know, you made the comment that 
you shouldn't be treated differently because of what is behind 
the flight deck door. But in reality, it is not just about what 
the cargo is, whether it is with passengers or if it is cargo, 
it is the operations are significantly different, the hours 
that the pilots are flying are significantly different. And so 
I believe fully that that is the difference. And would you 
agree that the facilities for cargo--or let me ask you this 
way. Are the facilities on the plane, or on the ground, are 
they the same for passenger as they are for cargo, or is there 
a difference?
    Mr. Cassidy. There is different rest facilities that are 
provided on planes that help to give crews the prescribed rest 
and augmented rest and they really vary pretty dramatically 
from completely separated cabins that only the flight crew can 
access to basically a seat back with the passengers. So there 
is a tremendous variety. Cargo as well.
    Mr. Shuster. Cargo and passenger, is cargo significantly 
different facilities than with passenger?
    Mr. Foose. I think that in many cases the answer is yes. As 
Ms. Gilligan referred to before, you know, I think we can use 
like FedEx or one of the big long-haul cargo carriers as an 
example where they actually have separate rest facilities so 
the crews can go in and get prescribed rest while they are 
doing the sort function.
    Mr. Shuster. But what about the number of hours flown. Is 
that a significant difference in fatigue, where you have 
roughly 30 hours where a cargo pilot on average is flying and 
over 50 a passenger. Does that have a significant difference in 
a fatigue? Would you agree with that, or not?
    Mr. Cassidy. It is a difficult question to answer because 
of the tremendous complexity and scale of the different 
operations. You can have somebody who only flew 30-40 hours 
during that month and be placed in a situation where they are 
more fatigued than somebody who flew 70 because of the way that 
the crew rest matrix works and prescribed rest requirements.
    Mr. Shuster. All right. Well, that brings me down to if we 
want to do one-size-fits-all, then we are going to get to some 
point I believe if we continue down this road where we are 
going to have to look at the individual. I know Sam Graves is a 
pilot and I know Mr. Cravaack is a pilot, and maybe he operates 
well on 6 hours of sleep and Mr. Cravaack needs 8 or 10 hours. 
We are going to get to a level where--is that where we are 
headed? I have been dealing with this sleep issue, whether it 
is for the railroads or truck drivers. It really comes down to 
the individual, how an individual operates and if those people 
are getting the right amount of rest. I mean, we are going to 
end up having sleep or rest police or cameras in your room.
    So, again, I just disagree fundamentally that these are two 
different operations. And fatigue is fatigue, but fatigue for 
Mr. Graves and fatigue for Mr. Cravaack ends up at a different 
threshold. So I think we really have to look at cargo and 
passenger differently and, again, look at what is available to 
the cargo passengers. Again, you have said a couple of things 
that I have asked you. The facilities are different, the flight 
duty is different for the different industries.
    So I know you are not agreeing with me, but you sound like 
you are agreeing with some of the principles that I have come 
to believe with, and that is why I have come to the difference. 
Is that accurate?
    Mr. Cassidy. Well, I agree fatigue is fatigue is fatigue 
regardless of who we are discussing. I also think that the 
regulation is very sane and safe in that it provides me, if I 
have a trip, you know, flying a passenger trip, multiple legs, 
I have the assurance that when I shut that hotel room door that 
I have 8 hours of prescribed rest time, period.
    And the other thing which I think is important to 
emphasize, you know, I have the privilege of representing both 
cargo pilots as well as passenger pilots at the Air Line Pilots 
Association, and I have a tremendous amount of faith in every 
single one of those members' ability to ensure that they are 
adequately fit and rested to fly regardless of what the 
regulation says, because the other notable achievement with 
some of this new regs is that it empowers companies to ensure 
that crewmembers are put in a situation where they can 
determine that they are fit to fly and not face any 
disciplinary issues if they identify, for whatever reason, the 
ice maker next door, the hotel elevator going up and down, that 
for whatever reason they just are not in a position where they 
feel safe to fly because of fatigue issues.
    Mr. Shuster. Mr. Chairman, I have one more question. I 
wonder if I might ask it and I will also address it to Mr. 
Cassidy and Mr. Hendricks.
    Mr. Hendricks, you are a former airline pilot, is that 
accurate?
    Mr. Hendricks. Yes, Congressman.
    Mr. Shuster. The new regs, the new rule, limits the number 
of consecutive nights that a pilot may fly to 3 nights. Is that 
your understanding? That would be for passengers?
    Mr. Hendricks. Yes, sir.
    Mr. Shuster. Would that force the carriers into scheduling 
greater numbers of shorter rotations for pilots?
    Mr. Cassidy. It might, and it really depends on the system 
operations for the airline. For instance, I fly for Alaska 
Airlines. Once upon a time we predominantly flew up and down 
the West Coast. Now we do a lot more transcontinental 
operations as well. So when you look at the complexity of a 
scheduling operation, a lot of times they can have mitigating 
strategies which allow them to best utilize a crewmember so it 
doesn't really affect efficiency that much of the operation by 
scheduling practices.
    Mr. Shuster. Mr. Hendricks?
    Mr. Hendricks. Congressman, A4A has engaged a group of 
leading sleep scientists to help answer these types of 
questions, and we thank you for posing it today.
    We will say that with regard to the consecutive nights of 
operation, many times that will in fact impose more fatigue on 
pilots, because flying on the back side of the clock, if you 
are a cargo pilot or you are a long-haul international pilot, 
that first night is the most challenging in terms of managing 
your alertness, and we want to limit the amount of first nights 
of flying that this rule may impose upon the system. So we are 
studying that more closely, and we do have some concerns in 
that regard.
    Mr. Shuster. So quite possibly applying this new FAA rule 
to cargo could make it less safe for cargo pilots, if you are 
going to increase the number of first night flights. Would that 
be a concern?
    Mr. Hendricks. Well, I would agree with Captain Cassidy 
that our crewmembers are all highly professional. We rely on 
them to make assessments of themselves and their fitness to 
fly. And along the lines that Captain Cassidy also mentioned, 
most airlines have completely non-punitive policies in place 
when pilots exercise their prerogative to say that they are too 
fatigued to operate the aircraft. So we support that. There is 
still more study that is required, but we are concerned about 
the increased exposure that pilots may have to this first night 
of night flying.
    Mr. Shuster. Well, I appreciate all four of you being here, 
especially Captain Cassidy and Mr. Hendricks. And thank you, 
Mr. Chairman, for indulging me. I think this is an issue that 
we have got to continue to look at. As I said, I want to make 
sure. Across this Government we do one-size-fits-all in far too 
many things, and I just don't think, and in this case there is 
evidence, significant evidence, that says we have to look at 
this a little differently. So I appreciate your being here.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I thank Chairman 
Petri and Ranking Member Costello for your leadership and for 
holding this morning's oversight hearing on safety. We all know 
that America has the aviation system that is the finest and 
safest in the world, but while we have an impressive safety 
record, we know that errors do happen in rare instances and the 
consequences are often very severe.
    I have Midway Airport in my district, also close to 
Chicago's O'Hare Airport, and I know that safety has to be our 
top priority.
    So I really just wanted to follow up a little bit on what 
Chairman Petri's original question, first question was with Mr. 
Hendricks. I in a previous time before I was in Congress did 
systems analysis. I worked for Swiss Air, although I didn't do 
this kind of risk assessments there.
    But I was just wondering, Mr. Hendricks, you talked about 
in your answer to Mr. Petri and your testimony about data. We 
know that data is the core of safety. I just wanted to get a 
better sense of what kind of data are we talking about? What do 
you look at in your risk assessment?
    Mr. Hendricks. Thank you very much. Many different types of 
data. We have a flight ops quality assurance program. It is 
actually a separate digital recorder on the aircraft that 
records parameters different than the digital flight data 
recorder in many cases.
    We have voluntary reporting systems that our pilots provide 
us, not only pilots, air traffic controllers in the ATSAP 
program. Some airlines have implemented this with the 
professionals that plan the loads on the aircraft. And we take 
into account also the surveillance data from our radars, from 
ADSB in some cases. And all of this is collected and fused by 
the MITRE Corporation, which operates under this umbrella of 
protection that the Congress has granted us to do a de-
identified, deep dive into all of this data, not specific 
instances, but looking for systemic risk. And that is where we 
have been able to achieve success, because the data is 
protected, it is rich, and it has proven to be very reliable in 
terms of what it is telling us and what mitigations we can then 
put in place to address what we are seeing in the data.
    Mr. Lipinski. Are there any examples that you can give 
about things that have been learned?
    Mr. Hendricks. Well, certainly. The Commercial Aviation 
Safety Team has had numerous directed studies. In fact, 3 years 
ago they were awarded the Collier Trophy. As you know, it is 
one of the most distinguished aviation awards in the United 
States because of this work.
    So they have done directed studies on control flight and 
terrain. We are currently looking at navigating on the runway 
into the area navigation, NextGen type procedures on departure. 
We are looking at other systems such as upset prevention.
    What we have been allowed to do, because we brought down 
the fatal accident rate to such a low level right now, is we 
are able to look at other things we simply didn't have the 
luxury of looking at because there were other pressing matters.
    But I would like to reemphasize the points I made earlier, 
which are the data is guiding us on what we should look at. We 
have a very formal process on the Commercial Aviation Safety 
Team to identify these risks, and then we focus our resources 
in these directed studies to go out and mitigate those risks 
throughout the system. The FAA is providing great leadership in 
this regard.
    Mr. Lipinski. Do you do any international sharing of data 
or findings?
    Mr. Hendricks. That is expanding currently. We are in 
dialogue with the European equivalent of the Commercial 
Aviation Safety Team. There are regional aviation groups 
throughout the world. One of the newer ones and more robust 
safety systems is in the Latin American region.
    I was just last week at a Latin American operations 
conference and the results they are seeing are pretty 
phenomenal. They have a very young fleet. They are collecting 
this data. We are showing them the way in many regards and we 
are learning things that when we operate in that region that 
perhaps we didn't see because we didn't have as much data. So 
we are starting down that path. We need to ensure that we 
protect that data as well as we do in the United States. But 
other regions of the world are starting to see that this is the 
path forward for success.
    Mr. Lipinski. Thank you. I yield back.
    Mr. Petri. Mr. Cravaack.
    Mr. Cravaack. Thanks, Mr. Chairman. I appreciate everybody 
being here today because everybody here is on the same page. We 
all want safe flights, safe airlines, to be able to get our 
passengers to and from where they want to go as safely as 
possible and bring cargo to the places that really need it. In 
some ports even in our own country we have to rely on cargo 
aircraft to just bring the sustenance to some different cities. 
So we are all working on the same page, let's just put it like 
that.
    Captain Cassidy, if I could just talk--I wish my colleague 
was still here in regards to hear some of this testimony you 
are about to give here. The studies that were done were data-
based studies, correct?
    Mr. Cassidy. Correct.
    Mr. Cravaack. I mean, they took a look at a lot of--a 
plethora of different fatigues that happen to a pilot on a 
normal basis. The thing is we are not just talking about flight 
times here. We are talking about crossing time zones, going 
from JFK to Tokyo and being on the back side of the clock, your 
circadian rhythm is completely maladjusted, and then being on a 
12-day trip and coming back home. So one of the things that we 
want to talk about when you talk about when cargo guys do that, 
long-haul cargo guys, we want to make sure that they get the 
proper rest and ensuring that occurs.
    Now, one of the things that my colleague brought up to me, 
and he says well, you know, cargo guys, they can rest while the 
aircraft is being--you are smiling--you know, pilots can rest 4 
hours while cargo is being taken off and placed back on. I was 
a wrench on a flight on a 747 and I can guarantee you that 
while that cargo was going off and on, I wasn't resting. I was 
making sure where the cargo was going, making sure it was tied 
down correctly, preflight planning.
    When you talk about flight time, it is when the cockpit 
door is shut and when the cockpit door opens again. It doesn't 
account for the preflight of the aircraft, the flight planning 
and things like that. I wanted to make sure they brought that 
up as well.
    So, you know, in understanding the effect, can you please 
describe to me why fatigue in your opinion as a professional 
pilot is so dangerous to aviation?
    Mr. Cassidy. Well, thank you for that question, and I 
appreciate the leadup to that. I think that the reason fatigue 
is is because it affects every bit of our function, our ability 
to process information, our cognitive function, our judgment, 
our ability to execute a critical, timely--make critical and 
timely choices, especially when you get faced with abnormal 
situations.
    Now, fortunately, 99 percent of the time that we are flying 
we don't get placed in a situation where you have to react in a 
nanosecond. However, there are times, both on the ground and in 
the air, I think it has been pointed out very clearly that a 
lot of our concern, risk factors, exist with runway incursions, 
excursions, ground-ops as well, and you have to be on your 
game. And unfortunately, discussing--you know, having a 
prescribed rest facility while they are doing the cargo 
operation, there is a couple of issues at play.
    First of all is just the responsibility, especially the 
pilot command, to make sure the load is done properly, center 
of gravity, that you understand what the manifest of goods are 
on the airplane, hazardous materials, et cetera, et cetera. But 
even if you did have that rest facility, if your body clock was 
such that it just was telling itself it is just simply not time 
to sleep, you may be in that rest facility but you will 
probably be staring at the ceiling for 4 hours just begging 
your body to sleep, otherwise known as window of circadian high 
and low. Your body travels in certain sleep cycles. Data speaks 
to the fact that a prescribed matrix which takes into account 
your start time for the day, the finish time for the day, the 
number of time zones that you skip, and as well as the number 
of operations that you have, are all very important in 
factoring in what the safest, sanest way to deal with rest 
requirements are.
    Mr. Cravaack. Thank you, Captain.
    Mr. Fortner, I am sorry, did I say that correctly? I am an 
old wrench on a 747 and coming out of Singapore on our way to 
Bangkok we had a number four engine fire uncontrollable, and 
the reason why is because the mechanic in Singapore put a wrong 
starter on the engine. Foreign repair facilities are a big 
concern of mine to make sure that we have proper maintenance 
going on in foreign repair facilities.
    What is your main comment on that and making sure that we 
have the right mechanics doing the right things?
    Mr. Fortner. Well, when it comes to an end registered 
aircraft, a U.S. registered aircraft, regardless of where the 
maintenance is being done, it is being done with the same 
rules, regulations, maintenance practices and data no matter 
where it is at. So along the lines of the differencesbetween a 
foreign and domestic repair station, there should not be any 
difference.
    Mr. Cravaack. Who makes sure, I know I am over, but who 
makes sure that that is in fact occurring? Who is spot 
checking? The people that are spot checking, do they have the 
people available to ensure that that occurs?
    Mr. Fortner. Again, being just a simple small U.S. domestic 
repair station, I am speaking a little bit out of my full realm 
of knowledge. But that being said, I do have full faith that 
with the training that is being done over there and that is 
required by U.S. law, that they undergo the same training that 
we do here. The oversight is the same.
    That is not to say that maintenance mistakes don't happen, 
but I don't believe that they are any more likely here versus 
there. That is part of the reason why we have so many 
redundancies and checks.
    Mr. Cravaack. OK. Great. Super. I appreciate that 
testimony. Thank you very much. I appreciate the chair's 
indulgence, and I yield back.
    Mr. Petri. Thank you. Mr. Lankford.
    Mr. Lankford. Thank you. I actually want to pick up on what 
Chip Cravaack was just talking about just now about foreign 
repair stations as well.
    What percentage do you think, and anyone can answer this, 
but obviously, Mr. Fortner, I think this would be closer to the 
center of your wheelhouse on it. What percentage do you think 
of maintenance that we have, that is scheduled maintenance, not 
just a, hey, the aircraft is parked here for a few minutes. 
Let's check this out while we are here transition. We have got 
a problem before we before we take the next leg scheduled, 
maintenance and repair is done internationally versus 
domestically at this point for our domestic airlines?
    Mr. Fortner. I will be honest with you, I really do not 
have an answer to that question. It is beyond my scope of 
knowledge.
    Mr. Lankford. Does anyone have a perspective on that or a 
guess?
    Mr. Hendricks. Congressman, I am not sure I can answer 
directly, but I can say that the example that Congressman 
Cravaack gave about 747s, there are no facilities in the United 
States that can perform heavy maintenance on 747s. We must take 
these aircraft overseas to have this type of maintenance action 
performed on them. These are very expensive capital assets that 
our airlines own and they are very highly motivated to assure 
that the quality of the repairs and the overhauls is very high.
    Speaking about foreign repair station ratios, if you will, 
I would say that it is a net positive trade balance with repair 
stations, comparing what we bring into the U.S. compared to 
what we conduct outside the U.S., to the tune of over $2 
billion.
    Mr. Lankford. Right, because of the sale of our aircraft, 
the initial construction and sale of the aircraft going out now 
obviously to be repaired. Why is it, why do we have, for 
instance, no facilities domestically for the heavy-duty repair 
for a 747?
    Mr. Hendricks. I don't have a good answer for you. I am not 
sure if it was economically driven or just facility driven. But 
I can say based on my experience in the airline industry, the 
quality of this work that is being done is very high and very 
robust, and that is why airlines continue to do this.
    Mr. Lankford. OK. Other comments on that? Mr. Fortner.
    Mr. Fortner. Again, as purely a domestic repair station, I 
would have to agree that when I go to other repair stations, 
including some foreign ones, the equipment and facilities they 
have over there and the training and personnel that I have seen 
and talked to are on par with anything you would see here in 
the United States.
    Mr. Lankford. Mr. Fortner, in your testimony you had stated 
that it has been 4 years since the TSA has given a final repair 
station security regulation. Do you have any perspective on 
why, what the delay is on getting that final regulation out 
there?
    Mr. Fortner. Sure. Actually it is only 4 since they were 
actually mandated to do it with penalties to the FAA. It really 
has been 9 years since they were first asked to do it. And, 
again, I don't work for the TSA, but, again, from speaking with 
the TSA, my feeling is that it is just a matter of priorities. 
They were a new governmental agency tasked with a lot of 
issues, and I think that----
    Mr. Lankford. So 9 years is not enough time to get that 
done?
    Mr. Fortner. I think that they had--I think they had more 
important things. And I agree with them. I honestly don't 
believe that the issues that they are trying to solve are 
there. It is really a solution looking for a problem. I mean, 
most people, they look at a repair station, I think that most 
public and probably much of Congress thinks of a repair station 
as a place where you land an airplane and you pull it up to the 
hangar and they do work on the airplane.
    The reality is that most of the repair stations out there 
are just like mine, which is I am 6 miles from the closest 
airport. Everything comes to me via UPS and FedEx. The parts 
come in. They fail on an airplane. They come in, we take them 
apart, we evaluate them, repair them, put them back together, 
test them and send them back.
    So long lines of security for a facility like ours that has 
45 employees, I don't think it is what Congress envisioned that 
they were looking at when they mandated this rule. So, again, I 
think the TSA simply had better things to do.
    Mr. Lankford. OK. So your perception, again, obviously you 
are not inside TSA, but your perception is they look at it and 
say this is a silly rule. We have got other things. We will 
just continue pushing this down.
    Do you think it has any impact in the industry, in the 
repair side, to not have that final rule out there? Just let us 
do our business, we are going to do a good job?
    Mr. Fortner. I think the only real impact is the fact that 
you can apply for and receive a foreign repair station 
certificate. It is kind of ironic that right now industry and 
the association are pushing for a rule that we don't want, not 
for the rule itself but to get rid of the penalties that have 
been imposed.
    Mr. Lankford. OK. So you can't get a foreign repair 
certification, is that what you are saying right now, without 
that?
    Mr. Fortner. That is correct.
    Mr. Lankford. But more than ever, we are doing repairs 
internationally?
    Mr. Fortner. Yes.
    Mr. Lankford. But we just can't add new places. You have 
preexisting. So basically this limits competition 
internationally, that you can't add new places. The existing 
ones just pay the penalty. How does that work?
    Mr. Fortner. You cannot add existing foreign repair 
stations, but the U.S. regulated certificated foreign repair 
stations can continue to do business. Does that answer your 
question?
    Mr. Lankford. I think. Do you want to try to clarify that a 
little more? So we are not adding new entities, we just have 
the same existing ones.
    Mr. Fortner. That is correct
    Mr. Lankford. At this point. So if we had the rule, then we 
can increase competition for this. If we don't add the rule, 
then it stays as it is?
    Mr. Fortner. Well, I think that competition is--you know it 
is a global market right now.
    Mr. Lankford. Sure.
    Mr. Fortner. I think that I wouldn't--again, as a purely 
domestic repair station, I don't look at this as competition as 
much as equalizing the playing field for everybody. I think 
that there is a lot of companies out there that are U.S. that 
would like the ability to open a foreign repair station 
facility, because there is a demand and there is a market for 
it. That does not necessarily mean that you going to be taking 
work from a domestic carrier here. There is just work over 
there to be had.
    Mr. Lankford. Thank you. I yield back.
    Mr. Petri. Thank you.
    Mr. Fortner, as long as you are here, before we adjourn, it 
is my understanding that the U.S. repair station industry does 
not have a high public visibility, but it does employ some 
nearly 300,000, 275,000 people in the United States and 
contributes nearly $40 billion a year to our economy.
    We have been talking in this hearing about safety. How do 
you strike the right balance or could you comment on any advice 
on how we could strike the right balance between appropriate 
safety regulations and oversight and over regulation that could 
end up being detrimental to people who are employed by this 
industry and who benefit from it?
    Mr. Fortner. I think probably first and foremost, new 
regulation are not always good and not always bad. The security 
rule is a good example of one where it is not necessarily a bad 
regulation as much as I think it is an unneeded regulation.
    Personally, what I would prefer to see is more resources 
put into what we already have, more inspectors, FAA inspectors 
out there to be able to do their jobs. What we see more than 
anything else is the lack of resources given to the people to 
do their job currently. I think that is one of the biggest 
issues that we face right now along the lines of safety and 
security for the repair station side.
    Mr. Petri. Thank you. Mr. Costello has one comment.
    Mr. Costello. Mr. Chairman, I really don't have a question, 
but my friend from Oklahoma, in asking the question about 
foreign repair stations, we have, members of this subcommittee 
have visited a number of foreign repair stations as well as 
domestic repair stations and my personal observation is some 
are better than others. But one of the things that concerns me 
the most is we had--when Mr. Sabatini testified before this 
subcommittee a few years ago, I asked him the question, how 
many safety inspectors do we have working at the FAA in all of 
Asia and Europe to inspect the foreign repair stations? And he 
said we had eight at the time. And I said how many repair 
stations do we have? And he gave us the number of repair 
stations. And I asked him the question, can you attest to the 
fact that these inspectors actually physically go in and 
inspect the repair stations once a year? And he said no. And I 
said once every 2 or 3 years? And he said he couldn't really 
tell us that.
    So I would agree that we need to put more resources into 
safety inspectors, both domestically and also internationally. 
And I would also say to the gentleman from Oklahoma, as he 
knows, because I think he has been to the American Airlines 
repair facility, they run an excellent repair facility.
    But the bottom line is the bottom line, and it comes down 
to money. In many cases where if you have an airline, a 
domestic airline in the United States flying empty airplanes to 
San Salvador to have them repaired and to bring them back 
empty, then you know that they are paying less to have them 
repaired in San Salvador than they are in the United States. So 
that is my personal conclusion.
    But I would agree with you that we should have more 
resources going to inspectors to make certain that we have the 
highest level of inspections and safety, both at domestic and 
international repair stations.
    With that, Mr. Chairman----
    Mr. Lankford. Would the gentleman yield?
    Mr. Costello. I would be happy to yield.
    Mr. Lankford. And that is my concern as well. My question 
was really about if there is something that we have done, as 
you said, a regulation in search of a problem, if there is some 
regulation that has been added, if there is some system that 
has been put in place that is outdated and outmoded, that is 
pushing this essential business overseas.
    We do have an excellent maintenance facility in Tulsa, 
Oklahoma, that deals with American Airlines. There are a lot of 
great people that work there, that work very hard, are very 
diligent and very particular about their aircraft. I am sure 
there are people internationally that are also particular about 
their aircraft as well. I am not doubting that, just to say 
this can be done domestically. If there is something that we 
are doing that is encouraging it to go domestic, that would be 
helpful for us to know. Because it would help us with jobs and 
progressing with the industry and the relationships with the 
airlines to the local communities if they would do it locally.
    There is no substitute to having a worker that lives in the 
district for having a tenacious commitment to the airline as 
well. That is different when the work is done internationally, 
and it is separate from it.
    Thank you for that. I yield back.
    Mr. Costello. I thank the gentleman and thank our witnesses 
and yield back the balance of my time.
    Mr. Petri. Thank you. It is my understanding our colleague 
Mr. Shuster has some additional questions, but we will ask him 
to submit them for the record and that you respond and we will 
hold the record open for that.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

</pre></body></html>
